<html>
<title> - RISK-BASED SECURITY IN FEDERAL BUILDINGS: TARGETING FUNDS TO REAL RISKS AND ELIMINATING UNNECESSARY SECURITY OBSTACLES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     RISK-BASED SECURITY IN FEDERAL 
                       BUILDINGS: TARGETING FUNDS 
                     TO REAL RISKS AND ELIMINATING 
                     UNNECESSARY SECURITY OBSTACLES 

=======================================================================

                                (111-61)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 23, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-493 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 
















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)



















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Dowd, William G., Director, Physical Planning Division, National 
  Capital Planning Commission....................................    17
Drew, John E., President, Drew Company, Inc......................     5
Goldstein, Mark, Director, Physical Infrastructure, Government 
  Accountability Office..........................................    17
McCann, Erin, Resident of the District of Columbia...............     5
Moses, Patrick, Regional Director, National Capital Region, 
  Federal Protective Service.....................................    17
Peck, Hon. Robert, Commissioner, Public Buildings Service, 
  General Services Administration................................    17
Porcari, John, Deputy Secretary, U.S. Department of 
  Transportation.................................................    17
Schenkel, Gary, Director, Federal Protective Service, U.S. 
  Immigration and Customs Enforcement............................    17

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    48
Norton, Hon. Eleanor Holmes Norton, of the District of Columbia..    49
Oberstar, Hon. James, L., of Minnesota...........................    52

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dowd, William G..................................................    54
Drew, John E.....................................................    59
Goldstein, Mark..................................................    67
McCann, Erin.....................................................    84
Peck, Hon. Robert................................................    97
Porcari, John....................................................   104
Schenkel, Gary...................................................   110

                       SUBMISSIONS FOR THE RECORD

Dowd, William G., Director, Physical Planning Division, National 
  Capital Planning Commission, responses to questions from the 
  Subcommittee...................................................    57
Peck, Hon. Robert, Commissioner, Public Buildings Service, 
  General Services Administration, responses to questions from 
  the Subcommittee...............................................   100
Porcari, John, Deputy Secretary, U.S. Department of 
  Transportation, responses to questions from the Subcommitee....   107
Schenkel, Gary, Director, Federal Protective Service, U.S. 
  Immigration and Customs Enforcement, responses to questions 
  from the Subcommittee..........................................   122

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

RISK-BASED SECURITY IN FEDERAL BUILDINGS: TARGETING FUNDS TO REAL RISKS 
             AND ELIMINATING UNNECESSARY SECURITY OBSTACLES

                              ----------                              


                     Wednesday, September 23, 2009

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. We are going to reverse the order of the 
witnesses because, in all fairness, I would like the Federal 
witnesses to be able to respond to what I think is now the 
second panel. So you can stay where you are for the moment and 
our opening statements.
    But when we finish with the opening statements, I am going 
to ask John E. Drew of the Drew Company and Erin McCann, a 
District resident, if they would take the witness stand. And 
after their testimony--it is fairly brief--the agencies will 
have a sense of one of the reasons we have found it necessary 
to have this hearing.
    I want to welcome all of you to today's hearing, especially 
our distinguished panels.
    I called this hearing as Chair of this Subcommittee and a 
Member of the Transportation and Infrastructure Committee. 
However, I also sit on the Homeland Security Committee. And I 
represent the high-target Nation's capital. My committee work 
puts me in touch with the Nation's security needs at the 
highest levels. This work and our experience since the Oklahoma 
City bombing leave no doubt that the complexities of risk-based 
security in an open society continue to elude us.
    Federal building security has little to do with risk-based 
threats today. The Government Accountability Office was 
recently able to get bomb-making equipment past security at 
several Federal buildings in this national capital region, 
where much of the new security has been focused because of 9/
11. At the same time, tax-paying citizens are unable to enter 
some buildings to use the restrooms or restaurant facilities.
    The security in Federal buildings is not uniform where it 
should be and, sadly, not professional or even appropriately in 
the hands of the Department of Homeland Security and the 
Federal Protective Service. Nonsecurity personnel control much 
of the security for many agencies.
    I introduced H.R. 3555, the "United States Commission on an 
Open Society With Security Act," on the eighth anniversary of 
9/11 this month, as an increasing variety of security measures 
have proliferated throughout the country without any expert or 
uniform guidance on evaluating risks to security and without 
much thought about the effect on common freedoms and citizen 
access.
    Federal facilities, where millions of Federal employees 
work and citizens come for service, have been the chosen target 
for major terrorist attacks on our country. After the attacks 
on the Pentagon and the Alfred P. Murrah Oklahoma City Federal 
Building, terrorists have left no doubt that Federal 
facilities, as symbols of the United States Government, are 
their chosen targets.
    Consequently, this documented pattern of terrorist assaults 
on Federal assets and consistent threats since 9/11 with 
arrests made even this very week have required continuing high 
levels of vigilance to protect both Federal employees and the 
visitors who use Federal facilities.
    When the Department of Homeland Security was formed in 
2002, the Federal Protective Service, or FPS, charged with 
protecting Federal sites, was transferred from the General 
Services Administration to the newly created Department and 
placed within the Immigration and Customs Enforcement, or ICE. 
Although the Committee supported the transfer, we insisted that 
FPS officers and guards be used exclusively by the FPS to 
continue the necessary protection of Federal sites and those 
who work and use them.
    However, starting in February 2005, the Chairman and I have 
had to send a series of letters to DHS and this Subcommittee 
has held hearings questioning the placement of FPS within ICE, 
inappropriate use of funds, and a major shift from protection 
to inspection. These concerns have strong bipartisan support, 
with both Chairman Oberstar and Ranking Member Mica expressing 
their own views about the gravity of the FPS situation.
    Now comes the GAO report to confirm that the FPS, the 
Nation's first Federal police force, established in 1790, and 
its contract guard force have been rocked by inadequate 
funding, staffing, and training that casts doubt on its ability 
to carry out its core mission: to protect facilities, to 
complete building security assessments in a timely and 
professional manner, and to monitor and oversee contractors.
    GAO reports, ominously, that pro-active patrols have been 
eliminated at many GSA facilities in spite of the fact that--
and here I am quoting GAO--"multiple governmental entities 
acknowledge the importance of proactive patrol in detecting and 
preventing criminal incidents and terrorist-related 
activities," end quote.
    Given the radical changes at FPS at odds with its statutory 
mandate, who can be surprised that today the GAO will testify 
concerning how GAO testers were able to get bomb-making 
equipment past security at several Federal agencies?
    At the same time, taxpayers are unable to enter some 
Federal buildings without escorts or other obstacles to the 
access to which they are entitled. Surely, we are smart enough 
to keep terrorists out without making it virtually impossible 
for U.S. Tax-paying citizens to get into Federal buildings.
    Risk-based security will be impossible as long as the 
requirements are set by a hodgepodge group who can choose their 
own security requirements without regard to evaluated risks and 
the big-picture concerns of each and every region. What passes 
for security today lacks the needed consistency, rationality, 
and accountability outside the particular agency. Non-security 
personnel are setting the agenda and calling the shots, 
building by building.
    We can do better, but only if we recognize and then come to 
grips with the complexities associated with maintaining a 
society of free and open access in a world characterized by 
unprecedented terrorism.
    Following the terrorist attack on our country, the first on 
the continental shores, all expected additional and increased 
security adequate to protect citizens against this frightening 
threat. However, the American people also expect government, 
their government, to undertake this awesome new responsibility 
without depriving them of their personal liberty.
    The place to begin is with a high-level presidential 
commission of experts from a broad spectrum of relevant 
disciplines, not military and security experts alone, who can 
help chart the new course that will be required to protect our 
people and our precious democratic institutions and traditions 
at the same time--something we have never had to do before and 
something we do not yet know how to do.
    When we have faced unprecedented and perplexing issues in 
the past, we have had the good sense to investigate them deeply 
in order to resolve them. Examples include the National 
Commission on Terrorist Attacks Upon the United States, also 
known as the 9/11 Commission, and the Kerner Commission that 
investigated the uprising that swept American cities in the 
1960s and 1970s.
    The important difference in my bill is that the commission 
would seek to act before a crisis-level erosion of basic 
freedoms takes hold and becomes entrenched. Because global 
terrorism is likely to be long-lasting, we cannot afford to 
allow the proliferation of security that does not require and 
is not subject to expert oversight or analysis of technological 
advances and other alternatives that can do the security job as 
well and without the severe repercussions on freedom and on 
commerce.
    Following today's hearing, I intend to move H.R. 3555 to 
help us find the necessary balance by establishing a 
presidential commission of experts from a broad spectrum of 
disciplines to investigate the threshold question of how to 
maintain democratic traditions of openness and access while 
responding adequately to continuing substantial security 
threats posed by global terrorism.
    The need for a high-level commission is imperative to look 
at issues from makeshift security and make-work security, such 
as checkpoints that are posed in the streets even when there 
are no alerts to the use of on-the-shelf technology without 
regard to effects on privacy and openness.
    We are open to all suggestions and recommendations 
concerning what we also do not yet know and do not yet fully 
understand, and that, of course, is the still-developing work 
of keeping us safe and open. We have confidence that our people 
and those in Federal agencies can do both, keep us open and 
keep us safe. We have tackled and mastered strong contrasts 
before.
    We will listen carefully to how the agency officials plan 
to balance keeping citizens safe in an open society. We welcome 
all the witnesses. Each of you is essential to this hearing, 
and we particularly appreciate your time and effort in 
preparing testimony on what we understand to be a very 
difficult and precedent-setting subject.
    I am pleased to ask our Ranking Member, Mr. Diaz-Balart, if 
he has any opening remarks at this time.
    Mr. Diaz-Balart. Thank you very much, Madam Chairman. Let 
me thank you for the opportunity, let me thank you for holding 
this hearing today on the security in the Federal buildings.
    If anybody had any doubt, the Oklahoma City bombings and 
the 9/11 terrorist attacks demonstrated that the Federal 
buildings clearly are huge targets for anybody who is out there 
trying to harm us, the United States, and our interests. And 
the recent arrests in that terror probe I think should also 
serve to remind us that that danger is still very, very real.
    In the wake of the 9/11 attacks, Congress created the 
Department of Homeland Security, as the Chairwoman has just 
stated, and transferred the Federal Protective Services from 
GSA to Homeland Security. Now, the intention was to improve 
security in our Nation's Federal buildings and facilities. 
However, despite the importance of security, the GAO has found 
that serious, serious problems continue to persist. In recent 
years, the GAO has conducted a number of investigations and 
reviews of the security in our Federal buildings. 
Unfortunately, these investigations revealed very significant 
vulnerabilities.
    As highlighted last year before this Subcommittee, the GAO 
found significant issues with respect to the management and 
oversight, for example, of contract guard programs. The GAO 
also found that FPS does not use risk management approaches to 
link threats and vulnerabilities to resource requirements, 
raising, obviously, questions as to whether resources are used 
as efficiently and as effectively as possible.
    The potential results of these vulnerabilities, well, is 
obviously apparent. During a recent review--and the honorable 
Chairwoman just mentioned this--during a recent review of 
building security, GAO investigators carrying bomb-making 
components successfully passed through security checkpoints at 
10 Federal buildings--facilities. I am not quite sure if they 
were buildings, but 10 facilities, Federal facilities.
    Now, obviously, resolving these issues is critical to 
protecting the people that work in those facilities, those that 
visit the facilities, the tourists, whatever. And that is 
obviously essential. Ensuring security policies are consistent 
with and not only consistent but also effective will obviously 
help balance security with appropriate public access, which is 
something that we all want to have.
    So I look forward to hearing from the witnesses today. I 
want to thank you. I echo the words from our distinguished 
Chairwoman about thanking you for being here. I look forward to 
hearing from you, and these are very important issues.
    So I thank you, Madam Chairman, for the hearing.
    Ms. Norton. Well, I appreciate your remarks, Mr. Diaz-
Balart.
    Of course, the Nation's capital is the easiest site to see. 
The FPS went far beyond the Nation's capital, however--sorry, 
the GAO went far beyond the Nation's capital to do its tests. 
And I see we have the Member from Louisiana, Mr. Cao. If you 
have any opening remarks, we would be pleased to receive them.
    Mr. Cao. I don't have an opening remark, Madam Chair. Thank 
you.
    Ms. Norton. Thank you very much, Mr. Cao.
    Now we will ask our first two witnesses: John E. Drew, 
president of Drew Company, Inc., and Erin McCann, a resident 
here in the District of Columbia.
    Mr. Drew?

TESTIMONY OF JOHN E. DREW, PRESIDENT, DREW COMPANY, INC.; ERIN 
          MCCANN, RESIDENT OF THE DISTRICT OF COLUMBIA

    Mr. Drew. Good afternoon, Madam Chairman and Members of the 
Committee. My name is John Drew. I am the chairman of Trade 
Center Management Associates, known as TCMA. We appreciate the 
opportunity to appear here today, and thank you very much for 
having us.
    I have some prepared remarks, and I will just read from 
them, if that is all right with you.
    Ms. Norton. Please do.
    Mr. Drew. TCMA has had the privilege of being the operator 
of the public portion of the Ronald Reagan Building in the 
International Trade Center since the building opened in 1998. 
We are proud to work with GSA, who is the owner of the 
building. And, as some of you know, after the Pentagon, we are 
the largest Federal building, 3.1 million square feet, in 
Washington, D.C., and the largest in the country.
    No one knows better than you, Madam Chairman, that when the 
Reagan Building was created, it was created with the unique 
congressional mandate that it was to function as a mixed-use 
building. One of the main functions included in that mandate is 
a trade promotion program that we organized to create and 
enhance opportunities for American trade and commerce.
    It is TCMA's responsibility to support GSA in the 
implementation of this mandate. Specifically, our 
responsibility is limited to the International Trade Center 
portion of the building, which consists of public spaces, both 
inside and outside of the Ronald Reagan Building. It is often 
referred to as a building within a building. Our team operates 
the International Trade Center with a diverse workforce and 
passionate workforce of over 550 full- and part-time staff 
members.
    We are proud to say that the Reagan Building is now 
Washington's busiest conference and special event location. We 
produce and provide a wide range of services to over 1,000 
meetings and events each year, and we welcome over 1 million 
visitors to our facilities.
    Our meetings and events are diverse and range from the 
recent U.S.-China economic recovery dialogue that President 
Obama and Secretary of State Clinton and Treasury Security 
Geithner organized this July to something that is taking place 
this weekend, which is a wedding that is taking place this 
weekend which has been organized by US magazine and the Wedding 
Channel. So it is a wide variety of activities that are taking 
place within the building.
    In addition, we operate D.C.'s largest parking garage 
within the building, and that accommodates nearly 2,000 
vehicles. This includes hundreds of cars each day that are 
visiting the Reagan Building for conferences or attending 
meetings at Federal agencies or driven by people who are 
touring the city.
    We also produce a number of activation projects that help 
the building fulfill its mission of connecting the central 
business district with the National Mall. In particular, we 
host Live on Woodrow Wilson Plaza, which is a free summertime 
concert series, enjoyed this year by over 75,000 people.
    It is worth mentioning that, in order to fulfill the 
mission of the building and to foster trade, we have a staff 
devoted to organizing and promoting upwards of 150 trade-
related events that take place within the building.
    We have a diverse tenant mix within the building. Our 
public food court has 20 vendors. It serves as a cafeteria for 
our Federal workforce in the building. It also hosts hundreds 
of thousands of visitors each year. Many of these visitors are 
school children who are on organized tours of Washington.
    The building is also home to EPA, U.S. Customs and Border 
Protection, and USAID. In addition, we have private tenants. 
Tenants are located throughout the building and in the office 
towers. And they represent private-sector global organizations; 
the University of Maryland has its business school located in 
D.C. in the building. International affairs offices of 
multinational companies are within the building, with foreign 
trade businesses within the building. We have not-for-profit 
organizations within the space and, also, international trade 
consultants occupying the space.
    Now that you know more about the facility, my testimony 
this afternoon will focus on the building security and how it 
is created and sustained. My remarks are limited to the 
security environment for the public spaces in the building.
    The security is provided by the Department of Homeland 
Security through the Federal Protective Service using Federal 
police officers and an armed contract guard force. During 
normal business hours, the Reagan Building has perimeter 
security stations at seven different street entrances, 
including an entrance at the Federal Triangle Metro station. 
These stations all have X-ray and magnetometers, and everyone 
entering the premises is required to present a picture ID to a 
uniformed guard. Some entrances are open around the clock.
    In addition, all vehicles entering the Reagan Building are 
screened using technical means for detecting explosive devices. 
And, in addition, every trunk and cargo space is inspected by 
guards.
    We also get a large number of trucks making daily 
deliveries to us and to our food court, restaurants, catering 
kitchens, and to support events at the conference center. Also, 
many trucks come to service our Federal tenants. One hundred 
percent of the larger vehicles are now scanned using a drive-
through X-ray machine operated off-site a few blocks from the 
Reagan Building. It is operated by FPS. All of the drivers have 
to have been precleared, produce proper ID. And then the 
vehicles are inspected, and then they are sealed, and then they 
are reinspected when they enter the Reagan Building before they 
go to our loading docks. In 2008, 20,000 trucks were inspected 
through the remote screening location.
    In addition to these human and technical security barriers, 
we also have K-9 officers present on site for random checks, 
and they respond to any issues that may arise.
    As I said, this is just the security apparatus for the 
public space. The Federal office towers have their own separate 
security stations and procedures.
    Turning back to the public space and International Trade 
Center, security was increased after 9/11, and perimeter 
security was installed. Up until then, all 61 doors to the 
public space were open and accessible with no perimeter 
security. After 9/11, the measures I described above were 
implemented.
    Initially, we feared that this comprehensive perimeter 
screening would prove to be an impediment to our conference 
center guests and our tourist visitors. As it has turned out, 
everyone seems to have understood the heightened risk and now, 
I think, believe that, actually, perimeter security is a 
positive aspect for the Reagan Building.
    Of course, this generally positive view of security in the 
building is made possible because of significant resources and 
coordination committed by GSA, FPS, and ourselves to make it 
happen. We have developed a terrific working relationship at 
the building level and a mutual understanding that security 
comes first but that the business of government in the Ronald 
Reagan Building has to continue. We all firmly believe that the 
building must be open to the public.
    Through this cooperation, we have held over 10,000 secured 
events, with literally millions of visitors. We have developed 
a strong institutional knowledge that allows everyone to work 
and function together. This working partnership at the Reagan 
Building between Homeland Security, GSA, and with the support 
of our organization, literally continues to grow at all times 
and every day.
    We have established protocols for the visits by the 
President of the United States, working with the Secret 
Service. We are also ready for weekly visits by foreign 
dignitaries to both the Federal space and to the International 
Trade Center. This is coordinated with the Bureau of Diplomatic 
Security. The Reagan Building also stands ready for busloads of 
schoolchildren who come daily to the food court and see the 
Berlin Wall that we have on display within the building.
    Every visitor is security screened through an airport-style 
X-ray machine, and all packages, backpacks, et cetera, are put 
through a magnetometer. This kind of seamless and layered 
security would not exist without close coordination, 
communication, and cooperation. We have regular weekly and 
monthly meetings that take place between the Federal tenants 
and the Reagan Building security staff that meet and talk about 
security issues and follow through on any updated procedures 
and other issues.
    Members of our own staff participate in a weekly security 
meeting with the building security to describe all upcoming 
events. We look 21 days out into the future, and we talk about 
every event that is coming in within those 21 days. Each event 
is talked about, it is organized, and then we coordinate each 
event and event orders for additional guards, deliveries, 
requests for K-9 after-hours screeners, and we coordinate all 
VIP parking. This is just to name a few of the security-related 
requests that we get daily that have to beaddressed, and this 
requires constant communication and coordination.
    In conclusion, I think it is worthwhile reiterating that 
all parties involved recognize that the safety of everyone who 
works or visits the Reagan Building demands and deserves our 
daily attention. All parties involved seek practical solutions 
to maintain the level of security, while ensuring the safety of 
both the tenants and the guests, and pursuing the mission of 
the Ronald Reagan Building, to keep it open and accessible, are 
met.
    This concludes my remarks, Madam Chairman. Thank you very 
much.
    Ms. Norton. Thank you, Mr. Drew.
    Ms. McCann?
    Ms. McCann. Chairwoman Norton, Members of the Subcommittee, 
I would like to thank you for the opportunity to speak to you 
today. I have a short statement, and then I will be happy to 
answer your questions.
    My name is Erin McCann, and I am an amateur photographer. I 
am also an active member of a group called D.C. Photo Rights, 
which exists to document and discuss incidents in which 
photographers have been harassed by security officers or 
police.
    In April, I became aware of a series of incidents at the 
Department of Transportation headquarters in southeast D.C., 
during which security guards had stopped members of the public 
from taking pictures of the building. A photographer had 
written into a forum on the Washington Post Web site asking a 
columnist for help, and word of the incident spread through the 
D.C. Photography community. Others shared their own similar 
incidents, and many headed to the building to see for 
themselves what would happen when they took their cameras out.
    What we have documented since then is a series of incidents 
going back at least until 2007 during which security officers 
have stopped photographers for doing nothing more sinister than 
holding a camera on DOT property. I have attached the details 
of some of these incidents, including my own. It is important 
to note that this list is not exhaustive. For every incident 
someone shared, another photographer would chime in with 
agreement and say, "Yes, that happened to me there, too."
    Many of the officers are polite, but they are firm in their 
belief that photography of the Department of Transportation or 
any other Federal building is illegal. Others obscure their 
names, refuse to provide contact information for supervisors, 
threaten to confiscate cameras, and issue contradictory orders 
when questioned.
    My own experience started on May 20th. I phoned the DOT 
security office and spoke with a Lieutenant Hulse, who referred 
my call to a supervisor. When that supervisor failed to call me 
back by the end of the day, I decided to go to the building to 
see for myself what would happen. Soon, I was standing in a 
lobby waiting for a supervisor, Lieutenant Butler, who, after 
taking down the details from my driver's license, made the 
following points:
    When told that DOT seems especially zealous among Federal 
departments in systematically training its guards to harass 
photographers, Lieutenant Butler said that made him proud. He 
said DOT is doing it right and everybody else is doing it 
wrong.
    Lieutenant Butler conceded that most of the people taking 
photographers of his building are harmless. The number he 
suggested was 90 percent. If I lived in the version of 
Washington where 10 percent of the people carrying around 
cameras were terrorists, I would never leave home.
    Lieutenant Butler said his employees are trained to 
intercept all photographers, collect their contact information, 
and forbid them from taking any more photographs of the 
building. This rule is an invasive attempt to collect personal 
data from law-abiding citizens. Thankfully, the security team 
often fails to collect such data from the people that it stops.
    After this conversation, I contacted the American Civil 
Liberties Union of the national capital area, which sent a 
letter to the DOT general counsel's office on May 27th asking 
for an explanation. I have attached that letter to my 
testimony. It took 3 months for the Department of 
Transportation to respond. They apologized for my incident, and 
they said the guard was in error. They made no mention of the 
pattern of documented harassment, and there was no indication 
that any guards would be retrained to end their systematic 
harassment of anybody with a camera.
    By way of defending their attitude toward photographers, 
the DOT response included a 2004 Homeland Security bulletin 
regarding photography at Federal buildings. It is a flawed 
document, claiming that, quote, "a widely known reconnaissance 
activity of criminal and terrorist organizations has been to 
gather photographic information about prospective targets." In 
the age of Google Maps and freely available satellite images, 
the idea that someone intending to harm a building needs first 
to conduct his own photographic reconnaissance is laughable. It 
is also an embarrassing waste of everybody's time.
    The DOT is not unique in regarding photographers with 
suspicion. All around this city and the country, courthouses, 
train stations, and Federal office buildings have been deemed 
off-limits to people with cameras. They do so under the 
mistaken belief that taking pictures in public place is illegal 
or requires a permit or is an indication that the person 
holding a camera is somehow a threat. In many cases, people 
have been detained, handcuffed, and arrested for failing to 
move along when a guard tells them to.
    It is my belief that the time and energy spent questioning 
every camera-toting tourist could, and should, be put to a more 
constructive use.
    Thank you.
    Ms. Norton. Thank you, Ms. McCann.
    I would like to question both of you.
    Ms. McCann, I can only say to you that, as a person who 
practiced constitutional law, I have seldom, in the years I 
have been in Congress, heard testimony that, if true, would 
amount to a violation of the Constitution of the United States 
subject to a temporary restraining order if the Federal 
Government had been sued.
    The notion that Federal officers would restrain American 
citizens from exercising their right to express themselves in 
public, including taking of photographs, is, on its face, 
unconstitutional. I say that without fear of contradiction. And 
let me tell you, it is seldom that a careful lawyer would say 
something as openly as that.
    I say it also with deep regret that such a practice has 
gone on and with apologies to you and those whom you know who 
have had this to occur. We will try to get to the bottom of it.
    I don't want to say--particularly since you have been 
dealing with people who are only following orders, what your 
testimony illustrates is responsibility at a far higher level 
than they. They are people who simply have been told, make sure 
that you help us protect this building. It is the absence of 
high-level guidance, even to Cabinet officials, that results in 
people doing whatever occurs to them, they who have no truly 
expert terrorist security background, whatever occurs to them. 
Bearing in mind that we are making it up as we go along, 8 
years after 9/11, it is time to try to be more professional 
than that.
    Let me go to Mr. Drew first.
    Mr. Drew, I listened, indeed you have been invited here, 
because we are also going to hear from those who control of the 
other side of the Ronald Reagan building, but we invited you 
here precisely because perhaps the Ronald Reagan Building 
provides us with the best example of contracts, only this time 
we are not dealing building-to-building contracts, as we see 
throughout the region, where you do not know and where there is 
absolutely no consistency building to building.
    Here we have a real test case within the same facility, a 
highly secured facility at that, on the one hand with the 
Federal agencies. And then, on the other hand, I can tell you, 
because as I entered Congress this was part of the first work I 
did, was to say to the Ronald Reagan Building, "Pay for 
yourself. Run it like a private enterprise. Get as many"--I was 
cheered to hear there would be weddings there--"Get as many 
different kind of people who can pay the price in." And, by the 
way, also to insist, as we did, that this had to be a trade 
facility and not an ordinary office building. So you will get 
pretty highly placed foreign officials who, were we unable to 
protect them, would embarrass the United States of America very 
severely.
    So you give the word "mixed use" new meaning. Normally we 
don't mean mixed secure and highly secure use. And you also 
give new meaning, the notion "public-private," because you have 
a private facility as part of a large landmark public facility, 
at the time the largest since the Pentagon.
    Let me, therefore, ask you a set of questions. I was 
particularly interested to hear you talk about the parking 
garage. Who may enter that? What kinds of clientele enter that 
garage?
    Mr. Drew. It is open to the public.
    Ms. Norton. So does that mean Federal workers on the one 
hand and people who are coming for events on the other?
    Mr. Drew. Yes.
    Ms. Norton. Now, if people are coming for an event, there 
is a premium put on making sure they get there in time for the 
event to take place. How are you able to accomplish that, if 
you are, while keeping the building secure for all its purposes 
and all of its uses may flow through there for parking 
purposes?
    Mr. Drew. Madam Chairperson, the way it is done in our case 
is that our people who are involved in sales and events make it 
known to anyone who is attending events or running events at 
the building that we are in a secure building. And we describe 
the security and----
    Ms. Norton. So when they are contracting for the building.
    Mr. Drew. Exactly. So it really is part of the 
communication that we have with someone who is going to be 
using the building. And so they are aware of it before they 
ever--and their guests, we hope they make their guests aware of 
it before they ever come to the building.
    The protocol that I described, that FPS put together, about 
checking the vehicles and examining the trunks and looking with 
mirrors below the vehicles has been established and put in 
place after 9/11, and it is followed for every vehicle that is 
coming into the building.
    So people know that this will take place. It doesn't mean 
they have to take extra time, but we also explain, quite 
frankly, that once you are in the building you are also in a 
protected environment. And that we turn into as much of a 
positive as possible.
    In our case, I think the secret is a day-to-day and week-
to-week working relationship, where there is constant 
communication and these weekly meetings that take place.
    Ms. Norton. And who is in on those weekly meetings?
    Mr. Drew. The FPS is in on those meetings. The contractor, 
CIS is in on those meetings, and our staff is in on those 
meetings, as well as the GSA.
    And we, in fact, we have learned by literally working 
together since 9/11 how to, in fact, brief one another, I 
think, very thoroughly. We also, in those weekly meetings, look 
at the past week's experience, of the past 10 days' experience, 
and we talk about events that have taken place. And so, if 
there are any learnings that we have from what we did last 
week, we are sharing those learnings. So it makes, I think, for 
a very collaborative operation.
    And to give credit to the team that we have, we, as a 
staff, pay particular attention to the fact that we are part of 
the security operation, too. Our people keep their eyes open, 
keep their ears open, and if there is anything they think is 
unusual they make it known to the security team.
    Vice versa, what we work with the security team on is 
trying to see, in their policing and security function, how we 
can introduce some hospitality there, so that people are moved 
through quickly but the work is done thoroughly, and have 
people understand, for example, if we have a lot of people 
coming between 6:00 and 7:00 tonight, that we expect to have so 
many hundreds of people that might be coming in, the entrances 
that they will be using, and what they can anticipate--what 
type of people they are and what they can anticipate.
    So there is an awful lot of time----
    Ms. Norton. You mentioned protocols of the Secret Service. 
That is set protocols, is that right?
    Mr. Drew. Those are set protocols.
    Ms. Norton. That means if the President of the United 
States were to come tonight, you wouldn't have to start all 
over again----
    Mr. Drew. Not at all.
    Ms. Norton. --to figure out how to make sure he could sit 
in the same building with others.
    Mr. Drew. Right.
    Ms. Norton. Question for Ms. McCann before I ask the 
Ranking Member and before I go forward: Have you been able--you 
described how others came out, as well. Did they come together 
with their cameras, or were they testers, also, one at a time?
    Ms. McCann. Mostly one at a time. The deal with the DOT 
headquarters building is that it is right next to the Nationals 
Stadium, and people cut through next to the building on their 
way to baseball games. So there are certain nights where there 
are massive numbers of people walking by, many of them carrying 
cameras.
    Ms. Norton. Were any of them able to, in fact--of course, 
those games take place in the day and take place in the 
evening. Were any of them able to photograph the building 
without interference?
    Ms. McCann. Yeah, it does happen----
    Ms. Norton. There is no consistency on when you can or not 
based on the time of day or any of the rest of it?
    Ms. McCann. In my experience, it depends on what guards are 
working. And that is kind of the way it works at other Federal 
buildings. I had a friend who was told in front of the Justice 
building that he couldn't photograph in front of that building, 
but that was a one-time incident. He went back the next night, 
and a different guard was working and didn't stop him. And that 
is----
    Ms. Norton. And no one told you about a policy or cited to 
you a policy or cited to you a document or cited to you a law 
that governed their discretion?
    Ms. McCann. The guard that I spoke with, Lieutenant Butler, 
cited Title 18 of the U.S. Code, which I believe is the entire 
U.S. Criminal Code.
    Ms. Norton. I believe you are right.
    Ms. McCann. And that was the best that he could give me.
    Ms. Norton. And, again, I stress that he is only doing the 
best he can. And I also stress that I think the agency heads 
are only doing the best they can.
    There is no central authority that consistently advises 
agencies or guides them, so that while you see some of this as 
laughable, it all comes back to the Federal Government, which 
is why this hearing is being held, not because we think any 
fool would know what to do. On the contrary. If you don't know 
what to do, then make it up so that you protect as much as you 
can.
    I want to ask the Ranking Member if he has any questions.
    Mr. Diaz-Balart. No. Thank you, Madam Chairman. I am fine.
    Ms. Norton. Let me go back for this question to Mr. Drew.
    Is there an agreed upon--here you have very secure and 
secure. And let me just say, Mr. Drew, that I am looking at 
what you are doing because I think what you are doing is 
instructive for the very large private sector in this city and 
in the Nation. Equally uninformed and without guidance are the 
far greater number of private facility owners, and they have 
been out there doing catch-as-catch-can. They can't call upon 
the government. They have to do whatever they can. They, like 
you, have a bottom line, which is: We better be open for 
people, or else we stop commerce in our building and in our 
jurisdiction.
    But one of the reasons that I want a presidential 
commission or some high-level commission, frankly, is not 
simply to guide Federal officials but because I don't think 
there is a lot of difference--and I think you show it--between 
the private and public sectors.
    Most public agencies are pretty low-level targets, quiet as 
it is kept, for terrorists. And yet many of them, I would say 
in their hubris, but I think in an overabundance of caution, 
regard themselves as susceptible tomorrow.
    So my question becomes, you have one building; conceivably, 
you could have something happen in the public or private side, 
and then it is everybody who is affected. Is there a security 
plan for the entire building?
    Mr. Drew. Yes, there is. And that is with the FPS is 
responsible for. We are working on our side of that building, 
but FPS is working with the Federal agencies for the other side 
of the building, and they bring it together.
    I think there is a lot of--I can't speak to specifically 
what is taking place within the Federal space, because that is 
not where we go. But the----
    Ms. Norton. Well, and some of that would be secure. And you 
meet and have discussions. I am now hypothetically envisioning 
something happening in one part of the building that 
technically didn't happen at all and perhaps wasn't even known 
about in the other part of the building. I am trying to see how 
those who are not affected, those who are directly affected 
would respond to such an incident.
    Mr. Drew. That is a very good question. What we would do in 
that case is that we would either notify, if it was on our side 
of the building and we find something was occurring, we notify 
the command center. The command center would work with FPS, and 
the entire building would be in fact then engaged.
    Ms. Norton. And the command center is run by whom?
    Mr. Drew. The command center in our building is run by the 
contracting service. But I must point out, one of the, I think, 
special features of the building is it is immediately next-door 
to FPS, so they are side by side. So even though they are 
manning the command center, staffing the command center, it 
really works as one unit.
    Ms. Norton. You are leasing--sorry. You have a contract?
    Mr. Drew. We have a contract with GSA. Under that contract, 
what we have responsibility for is the public space. But that 
is the sale--that is basically event sales, leasing the 
private-sector parts of the building, overseeing the parking 
garage from an operations----
    Ms. Norton. So you lease the garage yourself?
    Mr. Drew. No, we operate it for GSA. So we are below GSA 
operating it. So the protocols for----
    Ms. Norton. Okay. So within the GSA lease----
    Mr. Drew. Yes.
    Ms. Norton. --you have responsibility for the garage.
    Mr. Drew. Within the GSA contract that we have, as opposed 
to a lease, we have responsibilities for the garage.
    Now, those responsibilities are in providing service in the 
garage. So we manage, you know, you when you come to the 
garage, collect your money, help you park your car, all of 
those things, get your car back and then leave.
    Ms. Norton. Now, have you been given guidelines, Federal 
guidelines? How does GSA or DHS evaluate whether or not what 
you are doing in the private side makes that building safe for 
the public side?
    Mr. Drew. We are not evaluated on safety. We are evaluated 
on service, by GSA.
    Ms. Norton. So how do we know that the building is secure 
if you are not evaluated on security? Is anybody in charge of 
doing that?
    Mr. Drew. The FPS is team is in charge of doing that.
    Ms. Norton. So what do they do?
    Mr. Drew. Well, they, in fact, have a very rigid program 
and, I think, a pretty thorough program established, where 
every vehicle is inspected. And if you are a tenant in the 
building and you have an ID, you can show your ID and you can 
proceed into the garage.
    If you are a tourist or a visitor coming to the building, 
you, in fact, show your driver's license, but then your car is 
inspected, your trunk is opened, cargo space is inspected. In 
addition, there is a mirror put below your car to see if the 
car is also safe. And then they have a way of checking the car 
for explosives, which I can't explain to you, Madam Chairman, 
but they have a technique set up there where they will wipe the 
car and make sure there is no explosives around that car before 
they let you proceed into the garage.
    Any large truck cannot come into the garage or come into 
the loading dock unless it has gone through the off-site X-ray 
system.
    Ms. Norton. That interests me very much. Do you know 
whether or not there are other buildings, Federal buildings, 
that use this inspection service for garages?
    Mr. Drew. I believe they do. FPS can speak to it, but I 
believe the other buildings use it, as well.
    So a small truck can come in and be inspected on site, but 
anything that is larger, a cargo truck--and it is because of 
the quantity that the larger trucks can contain. So those are 
all taken off site. And they are checked, they are inspected 
for cargo, they are sealed. They have 20 minutes to come to the 
building. If they don't get to the building within 20 minutes, 
they have to go back through the procedure again. The seal is 
checked at the building to make sure it hasn't been tampered 
with. The driver's ID has been checked, and the driver has been 
recorded.
    So it is pretty thorough program in place to manage the 
garage to make sure it is safe.
    Ms. Norton. If someone went out into that large, beautiful 
courtyard by the Ronald Reagan Building and decided to take 
pictures, Ms. McCann or anybody else, would anyone stop such a 
person today from doing that?
    Mr. Drew. I don't believe so. I mean, and the reason I can 
say that with some certainty is that, for example, today----
    Ms. Norton. Do you have guards separate from their guards?
    Mr. Drew. No, we don't. All the guards are connected with 
the building. We don't have our own guards as part of TCMA.
    But the guards within the building go out into that 
courtyard for lunch. We have a concert, a free concert, going 
on there today. There are many people out there with cameras, 
and they are taking pictures of the concert as well as, I 
presume, the building.
    Ms. Norton. Have you had complaints from members of the 
public about how tough it is to get into the building?
    Mr. Drew. Once in a while, yes. But, again, I think we 
defend--we take those on directly, and, quite honestly, we are 
not apologists for the security. We really explain why the 
security is beneficial to them if they are coming into the 
building and beneficial to us.
    Ms. Norton. Have you ever found yourself with the cars 
backed up out into Pennsylvania Avenue trying to get in?
    Mr. Drew. Once in a while.
    But I will give you the opposite of that. We have had some 
events where there has been a lot of trucks bringing in 
exhibits, for example, that are going to be displayed within 
the building. And the FPS has worked with us to keep the X-ray 
site open after-hours. We pay for that extra expense; it is at 
our cost. But they have done that on large events. But it is 
because it is coordinated, we have told them in advance, and we 
have planned it. We have also used dogs and K-9s on trucks that 
are coming in after-hours as a way of expediting people coming 
in and out of the building.
    You know, I must say, it is a work in--it is a work every 
day that is in progress. And I think every day we try better to 
make it easier. But at the same time----
    Ms. Norton. And you weren't a security expert when you took 
over this building.
    Mr. Drew. I am not.
    Ms. Norton. So you, essentially, worked hand in glove with 
whom?
    Mr. Drew. We worked hand in glove with the team at GSA, in 
particular, and then with----
    Ms. Norton. So you all figured it out. You worked it out. 
GSA understood, or FPS, whoever, that you had a mandate to hold 
events there. And was there a great deal of friction among you 
on this matter?
    Mr. Drew. I must tell you that, first of all, because of 
the legislation, because of the work that you did and others 
did, but you in particular did, in creating the Reagan 
Building, we have a special piece of legislation that is there 
that was created, a Pennsylvania Avenue development group. And 
so the purpose of the building has never been questioned 
because of that legislation. It is meant to be open to the 
public. It is meant to be, as you said, profitable, paying for 
itself, et cetera. So, with that guideline, I think people have 
respected that guideline, and that has made it possibly easier, 
in our case.
    But I do recall that, right after 9/11 and with all of the 
anxiety, we had some that felt that the building was best if it 
was sealed off and closed. But because of the legislation and 
because of the belief in the legislation that the team, in 
particular GSA, had, they stood by us. And then, once we said, 
"No, the building has to be kept open to the public," it became 
a question of how to do it. And then I think the minds all got 
together and the cooperation began.
    And we had some stumbles. I mean, we have worked together 
and, I think, have helped each other out. And we have learned, 
as I said, on a daily basis how to do it better. And I don't 
know if we are doing it to anyone's complete satisfaction, but 
we try to do it better every day.
    Ms. Norton. And you make an important point. You had a 
mandate. You follow the mandate. It was a public-private 
mandate, but it was an unprecedented mandate. Instead of 
throwing up your hands or using the public mandate to defeat 
the private mandate, you did what we can only expect Federal 
agencies to do now.
    There is no template for this. We have to create the 
template and to be open and flexible enough to do it, rather 
than slam on the brakes and close up the society.
    Ms. McCann, you gave testimony before us concerning use of 
cameras at another monumental site, the Union Station, where we 
have heard some of the same things you have said about the DOT 
building.
    First I have to ask you whether or not, since you testified 
in March of 2008 on what appears to be the same things you are 
now finding at DOT--guards stopping people from taking 
pictures, no text or guidance to point to, no training--have 
you seen any measurable change in the policy at Union Station?
    Ms. McCann. Absolutely, yeah. I walk through there every 
single day, and I am always looking for people with their 
cameras. And I walk through every couple of weeks with my own 
camera and walk upstairs and downstairs just to check, because 
I am genuinely surprised that it hasn't reared up again. But it 
is been consistently open regarding photography since we had 
the hearing last year.
    Ms. Norton. Well, I have to give you and your testimony 
credit. And, of course, we use that to say to Union Station, 
one, take down the sign that said, "This is private property"--
--
    Ms. McCann. It took them about 2 months to take that sign 
down, too.
    Ms. Norton. Absolutely. That bothered us. Two months to 
take down a sign saying that a monumental public possession of 
the United States of America is private property.
    Okay, you all got that done. Let's say whether or not 
people can take pictures, pictures of what we want them to take 
pictures of, the extraordinary new rendering of the historic 
Union Station.
    And I think the Union Station knew it also required new 
training for guards. We had everybody before us, including 
Amtrak, those who use the station in any way. And we have seen 
that oversight does produce--and we didn't have to do any new 
law, we didn't have to do any new regulation--that oversight 
has been enough to get changes in one monumental site.
    Without a lot of oversight on this issue--we have done 
oversight on Ronald Reagan Building--we see that the agency is 
using the statute, have figured out how to do it. I say that 
the Federal agencies have lacked that oversight. And even as I 
have been very critical, the buck stops right here, right in 
the Congress, and right with the agencies who have some 
oversight, including Department of Homeland Security, including 
our own transportation agency.
    But we caution agencies, again, that people sitting in 
Congress are not always alert to difficulties until you bring 
it to our attention. Then the agency is in a much better 
position than to have people like Ms. McCann bring it to our 
attention. And then we then have to say to the agency, how come 
you haven't done something about this?
    So we sit here today to use your examples to help us who 
know least about this and to help the agencies across the 
United States, and particularly in this high-targeted region, 
find the balance. And I alert you that, in the region struck by 
9/11, I can't afford to err against homeland security. And I 
think you have showed us that we need not choose to do that.
    Ms. Norton. Thank you very much. We will call the next set 
of witnesses. Thank you for your patience. We will just proceed 
right across the board beginning with Deputy Secretary Porcari, 
of the U.S. Department of Transportation.

TESTIMONY OF JOHN PORCARI, DEPUTY SECRETARY, U.S. DEPARTMENT OF 
      TRANSPORTATION; MARK GOLDSTEIN, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE, GOVERNMENT ACCOUNTABILITY OFFICE; HON. ROBERT 
PECK, COMMISSIONER, PUBLIC BUILDINGS SERVICE, GENERAL SERVICES 
 ADMINISTRATION; WILLIAM G. DOWD, DIRECTOR, PHYSICAL PLANNING 
DIVISION, NATIONAL CAPITAL PLANNING COMMISSION; GARY SCHENKEL, 
  DIRECTOR, FEDERAL PROTECTIVE SERVICE, U.S. IMMIGRATION AND 
  CUSTOMS ENFORCEMENT; AND PATRICK MOSES, REGIONAL DIRECTOR, 
      NATIONAL CAPITAL REGION, FEDERAL PROTECTIVE SERVICE

    Mr. Porcari.  Thank you. Chairwoman Norton, Ranking Member 
Diaz-Balart, and Members of the Subcommittee, on behalf of 
Secretary Ray LaHood, thank you for inviting us here to discuss 
the security practices and the policies for the Department of 
Transportation headquarters.
    I am pleased to say that the Department of Transportation 
is enjoying its new headquarters building. It is working out 
very well, and we are excited to be part of the redevelopment 
that is occurring in the Capital Riverfront area of Southeast 
Washington. There was a strong commitment by the Department of 
Transportation leadership at the time to provide a safe and 
secure environment for its employees and to comply with post-9/
11 recommended security measures in the design and construction 
of the facility to mitigate risks. The requirements for the DOT 
headquarters represented the government's security consultants 
recommended industry practices, and were reviewed and adopted 
in collaboration with the Federal Protective Service and the 
General Services Administration. The DOT headquarters security 
requirements were developed consistent with the prevailing 
Interagency Security Committee security design criteria, the 
GSA policy guidance on 50-foot setbacks issued on April 2002, 
and a detailed risk assessment and analysis that was conducted 
specifically for the Department that validated that the 
requirements were appropriate for a cabinet agency with mission 
essential functions.
    Madam Chairman, DOT learned well the lessons of Oklahoma 
City and was directly affected by the loss of valued employees 
in that senseless act of violence. Prior to the Oklahoma City 
bombing in 1995, as you pointed out, there were no 
governmentwide standards for security at Federal facilities. 
Today, in this facility that is designed to the best available 
standards, the Department strives to not only provide a safe 
and secure environment for its employees but also to be a good 
neighbor. Our 5,900 employees in the building support local 
businesses, and I am pleased to say that DOT has been 
recognized by the Capital Riverfront Business Improvement 
District for our efforts to be a good neighbor.
    We host a farmer's market open to all in the neighborhood 
every Tuesday, in season.
    On Wednesdays at lunchtime we host local musicians while 
vendors provide food and refreshments, and in the evening 
movies are shown behind our building for the benefit of 
neighborhood residents.
    Thursdays are open market days where local vendors can 
offer their wares.
    And beyond those daily good neighbor activities, we have 
also accommodated planned special events like the District of 
Columbia's Presidential Inaugural event which was held in the 
building in January.
    The security practices and policies for the Department of 
Transportation headquarters building conform to Federal 
standards. Because of the new construction opportunity we have 
been able to integrate post-9/11 security measures that have 
greatly enhanced the security posture of the DOT headquarters 
building compared to many existing government facilities, and 
we are grateful for that. Overall, the security practices and 
policies for the Department's headquarters building are 
equivalent to other cabinet agency headquarters here in the 
District of Columbia.
    Thank you for the opportunity to testify, and I will be 
happy to answer any questions.
    Ms. Norton. Thank you very much, Secretary Porcari.
    Next, Mark Goldstein, Director, Physical Infrastructure, 
Government Accountability Office.
    Mr. Goldstein. Thank you, Madam Chair and Members of 
Subcommittee. We are pleased to be here today to discuss the 
Federal Protective Service's efforts to ensure the protection 
of over one million government employees as well as members of 
the public who work and visit the Nation's 9,000 Federal 
facilities.
    There has not been a large scale attack on a domestic 
Federal facility since the terrorist attacks of September 11 
and the 1995 bombing of the Murrah Building in Oklahoma City, 
Oklahoma. Nevertheless, the recent shooting death of a guard at 
the U.S. Holocaust Memorial Museum, though not a Federal 
facility, demonstrates the continued vulnerability of public 
buildings to domestic terrorist attack.
    My testimony today discusses issues from completed GAO 
reports as well as ongoing work we are conducting for the 
Subcommittee. Overall we have found that FPS faces a number of 
challenges that hampers its ability to protect government 
employees and the public in Federal facilities. These 
challenges include, developing a risk management framework, 
developing a human capital plan and better oversight of its 
contract guard program. A summary of our finding follows.
    First, as our July 2008 report showed, FPS' approach to 
protecting Federal facilities did not use a risk management 
approach that links threats and vulnerabilities to resource 
requirements. While FPS has conducted risk-related assessments 
such as building security assessments, we have reported 
concerns with the quality and approach that FPS uses to conduct 
these assessments. For example, FPS' approach is not allowed to 
compare risk from building to building so the security 
improvements in buildings can be prioritized.
    Further complicating FPS' ability protect Federal 
facilities is the building security committee structure. In 
some of the facilities that we visited, security 
countermeasures were not implemented because building security 
members could not agree on what countermeasures to implement or 
were unable to attain funding from their agencies.
    Second, as discussed in our recently released July 2009 
report, the absence of a strategic human capital plan to guide 
its current and future work force planning efforts is another 
significant challenge confronting FPS. The agency has begun 
taking steps toward developing a work force transition plan to 
reflect its work force reductions that have been required 
several years ago. However, in 2008 FPS discontinued this plan 
because its objective was no longer relevant because of 
Congressional mandate to increase its work force. FPS 
experienced difficulties meeting this mandate in part because 
of challenges to shifting its priorities from downsizing the 
work force to increasing it to comply with the mandate and 
delays in the candidate screening process.
    Additionally, we found that FPS headquarters does not 
collect data on its work force's knowledge, skills, and 
abilities. Consequently, FPS cannot determine what its optimal 
staffing levels should be or identify gaps in its work force 
needs or determine how to modify its work force planning 
strategies to fill these gaps.
    Third, as we testified in a July 2009 congressional 
hearing, FPS does not fully ensure that its contract guards 
have the training and certifications required to stand post at 
Federal facilities. While FPS requires that all prospective 
guards complete 128 hours of training, including 8 hours of x-
ray and magnetometer training, it was not providing some of its 
guards with all the required training in the regions we 
visited. For example, in one region, FPS had not provided the 
required 8 hours of x-ray or magnetometer training to its 1,500 
guards since 2004. Insufficient x-ray and magnetometer training 
may have contributed to several incidents at Federal facilities 
where guards were negligent in carrying out their 
responsibilities.
    In addition, FPS has limited assurance that its contractors 
and guards are complying with the terms of contract and post 
orders once they have deployed to a Federal facility. For 
example, with the components for an improvised explosive device 
concealed on their persons, our investigators passed undetected 
through access points controlled by FPS guards at 10 level IV 
facilities in four major cities where we conducted tests. Of 
the 10 facilities that we penetrated, eight were government 
owned and two were leased, and they included the offices of a 
U.S. Senator, a U.S. Representative, as well as agencies such 
as the Department of Homeland Security and the Department of 
Defense. Once our investigators passed the access control point 
they assembled the IED from the materials they were able to get 
past the guards.
    We also noted that CERTS, FPS' primary system for 
monitoring and verifying whether guards have the training and 
certifications required to stand posts at Federal facilities is 
also not fully reliable. We reviewed training and certification 
data for 663 randomly selected guards in six of FPS' 11 regions 
and found that 62 percent of the guards who were to deploy to a 
Federal facility had at least one expired firearm 
qualification, background investigation, domestic violence 
declaration, or a CPR first Aid training certification. Without 
a domestic violence declaration in place, guards are not 
permitted to carry a firearm. FPS requires almost all of its 
guards to carry such weapons.
    Finally, while FPS has taken steps to improve its ability 
to better protect Federal facilities, it is difficult to assess 
the impact of these actions because most of them occurred 
recently and have not been fully implemented. Moreover, there 
are a number of factors that will make implementing and 
sustaining these actions difficult.
    First, FPS does not have adequate controls to monitor and 
track whether its regions are completing the new requirements.
    Second, FPS has not modified any of its 129 guard contracts 
to reflect these new requirements.
    Third, FPS has not completed any work force analysis to 
determine if the current staff of 930 law enforcement security 
officers will be able to effectively complete the additional 
inspections and provide the x-ray and magnetometer training to 
15,000 guards in addition to the current physical and security 
law enforcement responsibilities. And while we are pleased that 
the new RAMP system will modernize how FPS manages it mission, 
we remain concerned about the accuracy and reliability of the 
information that will be entered into RAMP, including data from 
CERTS where we have noted problems.
    Madam Chairman, this completes my statement. I will answer 
any questions that you may have later.
    Thank you.
    Ms. Norton. Thank you, Mr. Goldstein.
    Robert Peck, Commissioner, Public Building Service of the 
GSA. Mr. Peck.
    Mr. Peck. Thank you. Madam Chairman, Mr. Diaz-Balart and 
Members of the Subcommittee, my name is Robert Peck, and I am, 
once again, the Commissioner of the Public Building Service at 
GSA. I have been here before. Thank you for inviting us to the 
hearing today. I have a statement for the record. I am going to 
summarize it and invite you to ask questions.
    We have no more important responsibility in GSA then 
safeguarding the one million Federal tenants in our buildings 
and the people who come to visit them. It is the most difficult 
responsibility to undertake because we have the responsibility 
both of safeguarding them and also of maintaining the freedoms 
that are the very reasons that our buildings and our government 
exists.
    It is somewhat easier to secure a high security facility 
somewhere in the middle of nowhere, put a huge fence around it, 
say nobody can get in and authorize your guards to use deadly 
force to keep out intruders. We are in the opposite position. 
We want people to visit. We want people to feel like these are 
their buildings. It is a very tall order.
    Can I just say as an aside to Ms. McCann, as a student in 
the early 1970s working on a paper on government architecture, 
I also tried to take a picture of a government facility in 
downtown Washington and was thrown out by a guard. So it is not 
just a new phenomenon and it is something that has been going 
on a long time. I also thought it was totally illogical.
    I will just say this is an important enough responsibility 
to me that one of my first actions coming back into GSA was to 
attend a national meeting of the Federal Protective Service in 
Kansas City and to talk to their regional heads and to Mr. 
Schenkel, their National Director. When I came to GSA the last 
time it was 8 months after the Oklahoma City bombing, and I 
spent a lot of time on security. We were in the process of 
developing security standards and spending a lot of money on 
countermeasures, and we learned a lot over the 5 years after 
that I was at GSA.
    The events of September 11, 2001, obviously, increase the 
urgency of security measures in government and other facilities 
and there have been lots of changes since then, I think mostly 
for the better. The Interagency Security Committee, on which 
GSA sits and on which we are the only agency with a primary 
real estate responsibility, has in fact tightened its standards 
and attempted to make those standards more based on risk of the 
kind of agencies in the building, the location of buildings, 
and the very structure of the building themselves. I think 
there is still a lot of work to be done.
    Obviously since then the Federal Protective Service has 
moved to Homeland Security, and although we are no longer 
totally joined at the organizational hip, there is no less 
important a call on all of us for GSA and Federal Protective 
Service to work together.
    Our job with the Federal Protective Service and our 
customers, the agencies who occupy our buildings, is to balance 
the risk, the resources we have available, functioning in the 
buildings as government agencies, and allowing in the public. 
How are we doing with all of that? I would say, as I said, 
better than we have before. I think there is a lot of work 
remaining to be done.
    I will say that you have raised some important issues at 
the hearing today about whether there is consistency in the way 
we go about doing that among our agencies. And so let me focus 
on that just for a brief moment.
    It is very important that we have an overall framework in 
which we assess the vulnerability of our buildings and in which 
we assess the risks and balance those risks against the 
resources we have available. It is also important to customize 
the security in our buildings because some agencies require 
more vulnerability, some locations require more vulnerability, 
more or less rather countermeasures against those 
vulnerabilities. I have some questions about the way we have 
gone about it and I think they parallel yours.
    I believe that in many cases the way in which the building 
security committees are organized and the authority that 
building security committees have, now called facility security 
committees have, to assess their own countermeasures is perhaps 
misplaced. I question--one of the suggestions I would make is 
that at a higher level inside our government I believe we need 
to have the kind of a framework that will allow FPS and GSA to 
go to the individual security committees and have an overlay in 
which we say, we understand your concerns, but we have experts 
who know how to do this kind of work and we are going to 
balance those kinds of concerns of yours as tenants with the 
resources and the expertise that we have as security experts.
    I will say again I am brand new to the job. This is my sort 
of first assessment of what is happening in our security 
business, and I look forward to working with you to figure out 
a way to make those changes.
    Ms. Norton. Thank you, Mr. Peck.
    William Dowd, Director of Physical Planning Division, 
National Capital Planning Commission. Mr. Dowd, you are next.
    Mr. Dowd. Yes, ma'am. Good afternoon, Chairwoman Norton and 
Members of the Subcommittee. My name is Bill Dowd and I am the 
Director of the Physical Planning Division at the National 
Capital Planning Commission, which is the Federal Government's 
central planning agency for the Nation's capital. It includes 
representatives from the Department of Interior, the Department 
of Defense, General Services Administration, the Mayor of the 
District of Columbia, the Council of the District of Columbia, 
United States House and Senate Committees with oversight 
responsibilities in the District, and individuals appointed by 
the President of the United States and the Mayor of the 
District of Columbia. I am very pleased to have this 
opportunity to speak with you today about NCPC's role in trying 
to balance legitimate needs for physical security with the 
undesirable impacts to important public spaces in our Nation's 
capital.
    Unlike other cities across the country, as the seat of our 
Federal Government, Washington, D.C. Has a significant 
concentration of Federal office buildings, museums and national 
icons that warrant levels of protection. The most typical and 
visible form of physical security in the city is vehicle 
barriers located in our treasured public spaces. These public 
spaces include sidewalks and building yards, accommodate a vast 
range of uses, and provide for mobility and enjoyment by the 
public; however, barriers sometimes detract from sense of 
openness that is so important to our capital city.
    In the National Capital Region, NCPC is responsible for the 
oversight of all physical development proposals on Federal land 
and, as such, has developed extensive firsthand experience with 
the challenges of providing physical security in a city known 
around the world for its distinct public spaces. Our commission 
understands that access to our government, as well as the 
important public spaces that define our Nation's capital is 
worthy of our protection.
    NCPC is concerned about the continuing challenges of 
balancing security and accessibility. Over the past decade we 
have worked hard to minimize the impacts that physical security 
measures have on the public spaces that define the city and 
represent our democratic values.
    In response to the unsightly security futures erected in 
Washington, D.C. After the tragic 1995 bombing in Oklahoma 
City, NCPC prepared and adopted Designing for Security in the 
Nation's Capital. Released in 2001, this report identified an 
approach to designing future security features in Washington 
that would reduce their impact on public spaces.
    Following 9/11, NCPC published the National Capital Urban 
Design and Security Plan in October of 2002. This plan provided 
physical guidance for the design of contextually sensitive 
physical security features appropriate for use in the 
monumental core of the city.
    In our review capacity, NCPC has regularly worked with 
applicant agencies over the past 10 years to reduce the impacts 
of proposed security improvements on the environment and public 
space. For example, NCPC was instrumental in guiding 
development of the landscape security solution on the 
Washington Monument grounds that is widely praised as 
successfully marrying landscape amenities and improved 
security.
    And most recently, in 2008, NCPC assembled a security task 
force to address the impacts that security projects were 
continuing to have both individually and cumulatively on the 
city's important public spaces. The task force included members 
of our commission, but also included participation from 
government security professionals, including the Department of 
Homeland Security and the United States Secret Service.
    Through this 1 year effort, NCPC's security task force 
reached several conclusions regarding the challenges of 
physical security. It also developed alternatives to better 
balance the need for security with the value of providing and 
maintaining openness in the Nation's capital.
    The security task force found that, one, because the 
probability of any specific type of attack on a facility is so 
difficult to quantify, the current determination of risk is 
based primarily on the vulnerability of a facility and the 
potential consequences of an attack. This approach to assessing 
risk often leads to proposals for extremely robust security 
solutions.
    Two, that existing security standards may seem appropriate 
in cities with only a few facilities that need protection. But 
these standards which are focused on increasing protection and 
physical standoff at individual facilities are more challenging 
in cities with many assets such as Washington, DC.
    Three, because individual Federal agencies are responsible 
for securing only their individual facilities, area wide 
security improvements that could benefit the entire city or 
monumental core are less likely to be identified and 
implemented.
    And four, security proposals for individual buildings are 
often developed specifically to satisfy existing security 
standards, not balancing improved security against other public 
or environmental impacts.
    NCPC's security task force determined that bringing 
together the views of planners, designers, security 
professionals, Federal landholding agencies and Federal and 
local oversight agencies to guide the planning and development 
of future security improvements can help meet these challenges. 
These groups need to work together to, one, prioritize security 
improvements at Federal facilities; two, identify the most cost 
efficient way to address our most critical security needs; and 
three, coordinate future security improvements to make sure 
that they address and respect the needs of Federal and local 
facilities in the city; and finally, four, ensure that 
individual and cumulative impacts to public space, public 
access and the environment, are fully considered before 
implementing physical security projects in the future.
    While it is important to make sure that we protect our 
Nation's most valuable assets, we must do so in a way that 
considers the impacts of our actions and which does not unduly 
harm the public spaces or the public access to our government.
    Thank you for inviting me to share NCPC's perspective on 
the challenging work to balance the need for improved physical 
security with the potential impacts that physical security 
projects have on public spaces and access to our government. We 
would be happy to answer any questions following the panel.
    Ms. Norton. Thank you, Mr. Dowd.
    Next we will hear from Gary Schenkel, Director, Federal 
Protective Service, which is a part of the U.S. Immigration and 
Customs Enforcement. Mr. Schenkel.
    Mr. Schenkel. Chairwoman Norton, thank you for this 
opportunity to appear before you today to discuss FPS mission, 
risk-based security in Federal buildings, as well as describing 
the steps we have taken to address the concerns raised by the 
Government Accountability Office.
    As you know, to serve customer agencies in Federal 
facilities, FPS must effectively balance the need for security 
with the need for ready public access to government services. 
This means that FPS, in conjunction with the agencies that 
occupy the facilities, must provide security solutions and 
ensure safe and secure environments that do not deter people 
from conducting regular business. FPS offers comprehensive 
physical security operations, installs security systems, 
alarms, x-rays, magnetometers, entry control systems, monitors 
those systems 24 hours a day, 7 days a week, and provides 
uniform police response and investigative follow-up. The 
provision of contract security guard services crime prevention 
seminars tailored to individual agency and employee needs, 
facility security surveys, integrated intelligence gathering 
and sharing, and special operations capabilities are all part 
of the broad FPS mission.
    Upon my arrival in 2007, it was apparent FPS was 
experiencing some challenges. The agency transferred from GSA 
to DHS in 2003 with a full-time equivalent work force of over 
1,400 spread across the country in 11 different regions. And I 
saw that FPS needed to focus on becoming a single standardized 
organization. This required a new operational construct and new 
business practices. However, FPS simultaneously faced budget 
constraints due, in part, to poor financial and contract 
management, as well as fee collection, requested in the 
President's fiscal year 2008 budget that supported fewer 
personnel than we had on board and at the time the budget was 
sent to Congress. To avoid having to reduce the numbers of 
Federal employees, FPS sought to realize savings in other 
areas.
    Consequently, many programmatic elements, such as training 
and equipment purchases had to be rescheduled until such time 
that FPS could determine it had sufficient funding. FPS of 
course remained obligated and dedicated to protect the almost 
9,000 GSA owned and leased facilities and overseeing 15,000 
armed contract security guards and managing over 150 contracts.
    During this period, FPS carefully assessed its organization 
and made difficult decisions. This refocusing effort culminated 
in the development of a strategic plan to shape future 
activities. FPS now focuses on critical issues within its 
protective mission and is developing a sound strategic path 
forward focused on facility security and the safety of the 
occupants and of the visitors who visit those facilities.
    With respect to the GAO report released in July, we took 
many steps to improve the visitor and employee screening 
process at Federal facilities, including improved training of 
contract guards and oversights of those guards. In addition, I 
believe that more work is needed to improve the training of 
contract guards and additional study is required to determine 
whether contract guards are maintaining constant vigilance. To 
that end, FPS is taking steps to bolster training and 
performance, increase oversight and supervision and create a 
more uniform protective system. After reviewing the problems 
identified by the GAO, I believe that the steps we have taken 
will redress these problems and the proposed future steps will 
ensure the improved protection of nearly 9,000 GSA owned and 
leased facilities protected by the FPS work force and our 
contract guards.
    I think it is important to note that FPS has limited 
authority with regard to the 9,000 or so facilities it 
protects. Although responsible for securing the facilities, FPS 
cannot set standards or require a particular facility to have 
the best available security equipment. Instead, building 
tenants make those decisions. Each building facilities security 
committee, or FSC, makes the final determination on the 
facilities security level and sets the building's access and 
security policies.
    Thus, FPS, although expert in physical security, faces 
challenges in protecting facilities and their occupants as FPS 
may deem appropriate. Tenants may select security controls and 
options that FPS' physical security experts have neither 
recommended nor endorsed. The GAO reported recently that only 
12 percent of the leaders of these FSCs have any security 
experience.
    Chairwoman Norton, I applaud your leadership role and the 
effort to strike the right balance between security and access 
to our Federal buildings, and look forward to working with you 
and this Subcommittee on addressing those challenges. I want to 
express to you my personal sense of urgency and commitment to 
the important responsibility I share with the men and women of 
the Federal Protective Service in keeping our Nation safe. I 
can tell you that they, as are Secretary Napolitano and 
Assistant Secretary Morton, are dedicated, determined and 
committed to developing, implementing and maintaining the 
highest level of physical security to ensure that the 
facilities they are charged with protecting are secure and 
their occupants are safe.
    I thank you again, Chairwoman Norton, for holding this 
important oversight hearing. I will be pleased to answer any 
questions you may have.
    Ms. Norton. Thank you very much, Mr. Schenkel.
    Mr. Patrick Moses, the Regional Director for the National 
Capital Region of the FPS. Mr. Moses.
    Mr. Moses. Chairwoman Norton, thank you for the invitation 
to appear before you today. I currently serve as the Regional 
Director of the National Capital Region of the Federal 
Protective Service. I was appointed to this position in 
September 2008, and I have served in the Federal Protective 
Service for 14 years.
    As part of my responsibilities I direct the regionwide 
infrastructure protection program by mitigating risk to Federal 
facilities and the occupants for 772 facilities operated by the 
General Services Administration, including a number of high 
profile facilities such as the Ronald Reagan Building and 
International Trade Center and the Nebraska Avenue Complex.
    Since Director Schenkel has provided the Subcommittee with 
a written statement on behalf of the Federal Protective 
Service, I will forego making a formal statement at this time, 
but will be happy to answer any questions.
    Thank you.
    Ms. Norton. Thank you, Mr. Moses.
    Mr. Peck, Mr. Porcari cites, page 2 of his testimony, based 
on a delegation of authority provided by the Department of 
Homeland Security through the Federal Protective Service, the 
Secretary of Transportation is solely responsible, without 
limitation, for protecting the DOT.
    Should GSA be delegating authority to agencies to set up 
security? Agencies like the Department of Transportation don't 
have a smidgeon of expertise on security of the kind we are 
talking about here. Should that be the practice? I am not 
asking you. I know you weren't there. Most of you at this table 
weren't there, and that is why I am looking less for apologies 
than I am for people who would want to take on this 
unprecedented activity with me. But I am asking, as a matter of 
practice, should the agency be delegating such security 
authority to an agency regardless of its background or 
expertise in security?
    Mr. Peck. My short answer is no. You know, for 20 some 
years we have delegated the management of major Federal 
headquarters buildings, mostly in Washington, to the agencies. 
And I suspect----
    Ms. Norton. You know, I can understand certain kinds of 
management notions being delegated. So, no, I accept that. We 
are not trying to, you know, centralize everything. I serve on 
the Homeland Security Committee and they have centralized the 
world in Homeland Security in order to protect us. So I accept 
what you are saying.
    Go ahead.
    Mr. Peck. Correct. And what I was going to say is I just 
suspect that since when that program first came in, I think 
building security was considered an aspect of building 
management. That has probably been the way delegations have 
happened. What I am telling you now is I think that we should 
reconsider whether that is a part of a delegation to an agency.
    What is important, of course, is that we consult with the 
agencies, because only the agencies can know how they actually 
use a building and what they need and what kinds of visitors 
they have and what requirements they have on deliveries and 
loading and all those things.
    But, again, as I suggested in my testimony, and I think you 
hear from Director Schenkel's also, that the balance of 
responsibility, of decision making about security in buildings 
is probably something that we ought to move back a little bit 
more, maybe even a lot more, toward those who have the security 
expertise.
    Ms. Norton. Do you agree, Mr. Goldstein? You, who are an 
expert from the GAO, where should the responsibility lie? 
Should it be with the HHS? Should it be with the Department of 
Education? Should it be with the Department of Transportation? 
Or is there some authority that is specialized enough within 
the Federal Government to advise agencies in consultation with 
them about our security for millions of Americans and Federal 
employees?
    Mr. Goldstein. We have not looked at the question 
specifically. But I would have to say in the work that we have 
done examining FPS and Homeland Security and some other 
agencies as well, it seems to us that some greater 
centralization, as you say, with consultation is probably 
useful at this point in time. The whole building security 
committee apparatus, the way in which risk management is 
approached as well, does not provide an avenue for GSA and FPS 
to look at the entire portfolio of Federal buildings and 
determine where the risks truly lie and how to protect them in 
a risk-based case.
    Ms. Norton. Isn't there a difference between some buildings 
and other buildings in the GSA inventory?
    Mr. Goldstein. Yes, ma'am. Absolutely. Even, you know, 
while there is currently under the standards a level I through 
V category distinction that separates risk----
    Ms. Norton. Because most cabinet agencies will be at least 
level IV, won't they?
    Mr. Goldstein. Most, certainly their headquarters buildings 
will be, absolutely.
    Ms. Norton. So we understand we are all high level. We are 
all very important. And we think that if some have higher level 
security than others it is not because they are more important; 
it is because terrorists and other criminals may seek access to 
those buildings more often than to others.
    Mr. Goldstein. That is correct. And one of the issues there 
is that the Federal Protective Service historically has not had 
great access to threat information and also does not have 
terribly useful crime statistics coming out of its own mega 
centers to help to determine where those greater risks lie.
    Ms. Norton. Say that again. I am sorry. You know, I can't 
always understand you.
    Mr. Goldstein. Sure. Two points I was making. One is the 
Federal Protective Service has not always had great access to 
threat information from the Joint Terrorism Task Force.
    Ms. Norton. What do you mean? They are part of the Homeland 
Security Department.
    Mr. Goldstein. That is correct. But in the conduct of our 
audits over the last couple of years, we had many FPS officers 
and officials out in the regions tells us that their access to 
Joint Terrorism Task Force information was very limited.
    Ms. Norton. Do you need access to Joint Terrorism Task 
Force information to do what was done at the Ronald Reagan 
Building by the private sector, working with the FPS?
    Mr. Goldstein. I can't answer that question. What I am 
suggesting----
    Ms. Norton. I guess it is a rhetorical question.
    Mr. Goldstein. They do lack significant information that 
they would need to develop a better risk-based model----
    Ms. Norton. I question that, Mr. Goldstein. I really 
question that because we gave very detailed questions to the 
witnesses that preceded you and they didn't anymore have 
expertise and background than the FPS before, for that matter, 
Oklahoma City. Nobody knew how to do this. But they were given 
a mandate by statute, and that was to make this building 
private to the greatest degree possible and FPS, you better 
make sure that the public part of it is as safe and secure as 
need be.
    And I guess I should ask if anyone else at the table thinks 
that there has been difficulty figuring that out without access 
to the highest level information, because the next thing we are 
going to hear, Mr. Goldstein, is unless we know all the threat 
information that the Secretary knows, don't expect us to be 
able to guard these buildings in the way you want.
    But, I mean, you all didn't have that at Ronald Reagan. And 
yet you have got a million visitors coming to Ronald Reagan. 
And the highest profile building outside of the Capitol and the 
monuments and the White House, and the President can go in 
there today and I am not sure who has access to all that highly 
classified information.
    So I hear you, Mr. Goldstein. Mr. Peck.
    Mr. Peck. Well, let me see if I can make a distinction. The 
point in the Ronald Reagan, which is, by the way, a great 
example of how you can get the tenant agencies and a private 
vendor and FPS and GSA to work together on this. However, is 
that the Ronald Reagan, we assume, is a very high risk target 
and we have had protocols developed with the Secret Service. 
Whether FPS has access to the information now or not I don't 
know. I know they did have trouble at one point in time.
    Ms. Norton. Well, FPS doesn't need to if it is in 
consultation with people who do have access and they are acting 
reasonably.
    Mr. Peck. That is correct. And on the Ronald Reagan 
Building since we assume it is very high risk, we assume that 
we need a very high level and we have been able to assume that. 
I think the issue becomes a little bit more important, what Mr. 
Goldstein is talking about, where we have buildings that are 
probably in a lower risk category, and there we need to have 
the people--our tenants need to have the confidence that FPS 
knows what it is talking about when it sets a risk level 
because if we are--may I just say one other thing. You put your 
finger on something before. That if a facility security 
committee run by people who aren't security experts, don't know 
what the risk is, don't know what the best practices are, they 
are going to naturally go to the highest level of security that 
they have seen in some other building. To be able to convince 
them that in some buildings we don't need things ratcheted up 
that high, they need to have confidence in us that we know what 
the risks are, we know what the proper countermeasures are.
    Ms. Norton. That point is very well taken. And yet, Mr. 
Peck, it looks like the GSA or the FPS is buried when it comes 
to security. We have got something called the Interagency 
Security Committee, ISC. Now, you are the only agency who has 
the mission of managing, you are the PBS of managing property. 
So far as I know, you are neither Chair, you of the GSA or of 
the Federal Protective Service, either Chair or even have a 
particular leadership position. I don't even know, maybe Mr. 
Goldstein or somebody knows, whether your even being at the 
table matters. Who is in charge of this committee?
    Mr. Peck. Well, I think Homeland Security is chairing the 
ISC at the moment.
    Ms. Norton. Who? Who is that? What agency? Is there a 
Chair?
    Mr. Schenkel. Madam Chairwoman, the Assistant Secretary for 
Infrastructure Protection is the actual Chair of the ISC.
    Ms. Norton. Assistant Secretary for----
    Mr. Schenkel. Infrastructure Protection.
    Ms. Norton. And of course, Mr. Schenkel, you don't even 
come under that division.
    Mr. Schenkel. No, ma'am. No, ma'am.
    Mr. Peck. If I may say, one of the problems----
    Ms. Norton. So that is the--and everybody else is kind of 
at the table; is that it, Mr. Schenkel?
    Mr. Schenkel. It is, I think it is a group of 24 members, 
actual voting members. Everyone has access to the meetings and 
certainly has to abide by the decisions.
    Ms. Norton. Where are their decisions published?
    Mr. Schenkel. They are published in their own directives 
that they put out at the facility's security level.
    Ms. Norton. Could you get to this Committee within 30 days 
their directives that all agencies under their jurisdiction 
must apparently use this guidance? Mr. Peck.
    Mr. Peck. May I just say, at least, when I was in the 
private sector, a good number of the ISC criteria are actually 
on-line. They are not classified. So they do have them. Can I 
just say though----
    Ms. Norton. Mr. Schenkel, would you get to us within 30 
days the material on-line or off-line and tell us whether it is 
agency wide so that we may see what guidance the agencies have 
been given?
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Now, everyone at the table should know that we 
are not here to say why haven't you done X, Y, or Z, or why did 
you do X, Y, or Z. We know the reason. We do not believe, 
despite whatever is on-line, that the agencies consider that 
there is an authority, nor has Mr. Goldstein testified to any 
authority that agencies look to. So I am not saying how come 
you are doing this, that or the other. I believe the agencies 
are doing the best within their discretion. I also understand 
that not everybody has been at the table the whole time. Some 
had to be at the table to make it up as they went along. That 
is how--that is what we are doing right now. We are just trying 
to see if there is a better way to do it. So I would caution 
everybody, since I am not holding those who put it in place 
without guidance or sufficient guidance responsible, I don't 
think anybody at the table at all ought to put that monkey on 
your back because then you are going to own it if you want to, 
in fact, use it as the reason for what you are doing.
    And I say that to you, Mr. Porcari, because I don't believe 
you have testified before us. But you did say, quite 
truthfully, I have cited it to Mr. Peck, that you are doing 
what has been delegated to you. But on page 2 of your 
testimony, you also said that the DOT headquarters security was 
developed, and you go on, and a detailed risk assessment 
analysis conducted specifically for the Department that 
validated our requirements were appropriate for a cabinet 
agency with mission essential functions.
    Now, mind you, I know fully what your mission is. This 
Committee is part of the Department of Transportation and 
Infrastructure, and I am on the Homeland Security Committee, so 
I am not in doubt what your mission is. And your mission is 
very important to the United States. But let me tell you and 
ask you whether you think this can be improved. You heard Ms. 
McCann testify about what I think could be called arbitrary 
treatment. Some guards let you take pictures. Some guards don't 
let you take pick pictures. And she said, she quoted a 2004 Mr. 
Schenkel security bulletin regarding photography at Federal 
buildings. And this is what she quoted from a 2004 Homeland 
Security bulletin that was apparently published right here for 
the public to read.
    Widely known reconnaissance activity of criminal and 
terrorist organization has been--I am sorry. Claiming, the 
document claimed that a widely known reconnaissance activity of 
criminal and terrorist organizations has been to gather 
photographic information about prospective targets.
    Agreed. Do you think it is appropriate today for the 
Department of Homeland Security to keep a citizen from taking a 
picture or that you are endangered if somebody takes a picture 
of the front or the back or the side of the Department of 
Transportation headquarters?
    Mr. Porcari. Madam Chairman, let me first apologize to Ms. 
McCann. I know that we did respond in writing. That action was 
inappropriate. We said so at the time. I just want to reiterate 
that personally.
    Ms. Norton. Thank you for that.
    Mr. Porcari. And the November 10, 2004, Federal Protective 
Service bulletin is what we have been following. And I would 
also add that we have, since that incident, given written 
guidance to the security personnel at the building that 
references that and that is very specific about how they should 
be.
    Ms. Norton. Saying what? Would you just characterize how, 
because you know what happens? And I warn you. People who 
brought this to our attention were young people. They are going 
to start snapping the pictures left and right.
    Mr. Porcari. I do understand.
    Ms. Norton. And you are presumed to be under oath here. We 
don't, and I may have to do this. I may, you know every other 
Committee they make people stand up. I exercise a presumption 
in favor of the truthfulness of anybody who appears before me. 
So be careful about your answers. They will test you out.
    Mr. Porcari. You should be able to rely on that assumption 
in the roles that we are in. That is an explicit part of the 
job.
    Let me just characterize some of the important points that 
is in that guidance. It says first please understand there is 
no prohibition against photographing the DOT or FAA 
headquarters buildings. Second, however, because reconnaissance 
activity of criminal and terrorist organizations has been to 
gather photographic information about prospective targets, 
security personnel should follow the procedures. That wording 
is directly from the Federal Protective Service 2004----
    Ms. Norton. That is good. So far so good.
    Mr. Porcari. One, approach anyone within DOT or FAA 
boundaries taking photographs of the building and identify 
yourself. In other words, as a security officer. Two, conduct a 
field interview to determine the purpose for taking photographs 
of the facility and endeavor to ascertain the identity of the 
individual. That, again, is wording directly from the FPS 2004 
guidance. If the field interview does not yield a belief of 
criminal behavior or terrorist reconnaissance activity, the 
photography should be permitted without further action.
    Ms. Norton. What is going to happen, Mr. Porcari and Mr. 
Schenkel and Mr. Peck, as you can see from Ms. McCann, I don't 
even know if she is a lawyer. All I know is she is typical of 
the people I represent. Smart. So I am going to have to ask 
you, does that directive apply, if you are taking pictures on 
the property or if you are taking pictures a few feet back from 
the property?
    Mr. Porcari. This applies, to my knowledge, on the 
property. The property extends to the curb line.
    Ms. Norton. So, I understand, and I understand, Mr. 
Porcari, you are quoting from what the directive says. And you 
are abiding by the directive. And Mr. Goldstein, that is why I 
believe security isn't worth a tinker's damn, if you will 
forgive the expression, because I believe you can get a better 
reconnaissance picture of DOT by getting across the street and 
using one of the new-fangled or for that matter old-fashioned 
cameras. And I think you could get something that would be 
virtually like a blowup of every part of it. And yet, Mr. 
Porcari, according to the guidance he has, has got people who 
could be looking for some people who are trying to get into the 
buildings, going up to American citizens and questioning them 
about what they are doing there.
    Now, I say, and putting on my old hat as a constitutional 
lawyer who has argued before the Supreme Court of the United 
States, I say that there is a serious risk, and we have already 
seen Union Station, inside the Union Station, they understood 
you had better not do that. There is a serious risk to go up to 
a law abiding person who is exercising her first amendment 
rights to take a picture of the building she owns as a 
taxpayer, and interrogate her to make sure who she is, unless 
there is a risk that can be demonstrated.
    I have just tried to give you the kind of law school 
hypothetical I use still as a tenured professor of law at 
Georgetown University. I say to you that not only have I found 
it difficult to see the risk, but it is far from, not only is 
there no overriding risk to infringe upon the first amendment 
right of the citizen, I believe the terrorist is better able to 
take pictures off the property and that no U.S. attorney would 
do anything if a suit was brought but give up. That is just how 
off the mark, given the so-called preferred rights, first 
amendment rights are, and I am denominating the right to take a 
picture as a first amendment right.
    So I am trying to find out whether or not what is printed 
out so that Mr. Porcari is only following the directives that 
Mr. Schenkel and Mr. Peck's organizations have said he should 
follow, I am asking you, as security expert, whether or not you 
believe that a justification can be, and ask you to stretch now 
and help them out because they could find themselves in court. 
Is there a justification that could be made for keeping 
somebody on Federal property where you have a right to be 
because it is Federal property which itself is not off limits 
as secure property, is there, could you argue that it is 
justified to begin interrogation of a citizen taking pictures?
    Mr. Goldstein. We have certainly not looked at the issue in 
any of its facets, Madam Chairman. I would say though that many 
of the policies that FPS promulgates are not enforced in any 
kind of uniform standard, and that is part of the problem that 
you do face even with those standards that ought to be 
enforced, no less those that may have some questions about 
whether they should be enforced or not.
    Ms. Norton. So we are looking for, to help the agencies get 
some kind of guidance to take seriously. Now obviously some 
don't take it seriously at all. The testimony was that DOT 
doesn't take it seriously some of the time and take it 
seriously--in other words, the guard in his discretion can the 
see silliness of this perhaps and say I am not going to let 
that come out of my mouth that you better not take pictures, so 
maybe he lets it go. Another guard says I am by the book so I 
do it. That is where risk comes in, where you have that kind of 
inconsistency.
    But, Mr. Porcari, I am going to tell you about an 
experience we had. Let me first thank you on behalf of and ask 
that you thank those at DOT who have been very kind to us. We 
have had, we have been into your courtyard, we love it, where 
you are good enough to have a farmer's market if you still do. 
Certainly you did.
    Mr. Porcari. We do.
    Ms. Norton. We have had events, as you indicated, in your 
building. But let me tell you what has not changed. You work 
very closely with the business community in your area and this 
applies to them as well as to others. When we first went to use 
this beautiful facility which came through this Committee, I 
might add, my staff, staff of the United States Congress, which 
have this ID around them, were not allowed, who have a higher, 
I would argue, security clearance than most in your building, 
were not allowed to enter the building even with their ID and 
even after a magnetometer. So somebody, they were told, from 
the building had to come down and let them in. And the same way 
we are informed by people who actually work with you on a 
cooperative basis, because DOT has done very good work in 
working on the M Street corridor, with those agencies and 
private entities, that even they, people in the business 
community, in the local BID, what do you call it, the BID, 
Business Improvement District, were required to get an escort 
to get into the building from the courtyard. When we held an 
event there, while there were people stationed at various 
doors, we were told that if they happen to come from another 
area they could only enter from the other door until I 
personally intervened since the door they were supposed to 
enter into was the furthest from where the event was being 
held. The guards were only doing what they were supposed to do, 
but it was an exasperating and frustrating experience, and the 
DOT became the poster child in one sense, for this hearing when 
we saw that people who had passed the highest security even in 
the Congress of the United States couldn't get in the building. 
And people with whom you were familiar couldn't get in the 
building unless somebody came down and escorted them into the 
building. And who knows, that might be a different person each 
time, for that person was pulled out of her work in order to 
come down to do what the magnetometer or the guards could do.
    This is what I mean by make work, and I need to know 
whether you are prepared to look closely at the DOT building in 
particular and to make sure that it does what page three of 
your testimony says, overall the security practices and 
policies of the Department's headquarters building are 
equivalent to other cabinet agency headquarters in Washington, 
DC.
    Nonsense. You heard Ronald Reagan, which has cabinet 
agencies, you heard the testimony there. I know of no--I can 
tell you that I know of no agency, perhaps the CIA, where it is 
harder to get into than the Department of Transportation. And 
while people may try to get to parts of your agency over which 
you have jurisdiction, and trains and airports, we do not 
believe that your headquarters are nearly as high profile a 
target as many headquarters in Washington, which are 
identifiably higher terrorist targets.
    So I am not asking you to justify it. You weren't here. But 
you do say that you meet--you do what others do. I don't know 
anybody else who pulls people out of their work to come down in 
order to escort people in. I don't know anybody else where you 
can't use the john and you have a kid and you say, but isn't 
this a Federal building? I know very few Federal buildings 
where you can't get in to do a restaurant. I tell you one 
thing. Mr. Porcari, you can get into the Reagan Building, 
Longworth Building, and Cannon building in order to use our 
facilities and in order to go to the restaurant. You can get 
into the Capitol of the United States across the street in 
order to use the facilities. How are we able to allow the DOT 
to continue to have a stricter protocol than in the building 
where you are now sitting?
    And all I am asking you to do is not to justify. God help 
you if you are going to justify it. I am asking you, are you 
willing to look at it so that we do not have testimony that 
says you are equivalent to other buildings, when this Member of 
Congress has entered other buildings and had staff members 
enter other buildings and have them enter this building and 
know firsthand that it is not equivalent to other buildings. 
That is all I am asking.
    Mr. Porcari. Madam Chairman, a couple of things. First, you 
started your opening statement by making what I think is a very 
important point, which is this is an issue of balance and that 
balance is different given the circumstances and the 
particulars of it. I think that is certainly true in the case 
of the DOT headquarters building. You are correct.
    Ms. Norton. Excuse me. And how--why is it balanced? You 
can't just make a blanket statement like that.
    Mr. Porcari. I am trying to get to that.
    Ms. Norton. Okay.
    Mr. Porcari. An escort is required in the building and it 
is a function of the building design. It is fundamentally an 
open office environment. When you go through the security, past 
the magnetometers, you can go anywhere, unfettered access to 
the building. It is a building that also has----
    Ms. Norton. That is the case in every building, sir. Once 
you get through the magnetometers here, guess what? You can go, 
you can get to the Speaker's office. You can go through the 
tunnel because once you have come through Rayburn, you now have 
access to all of us. So I want to know why that puts you in a 
different position than it puts me.
    Mr. Porcari. This security procedure was set up at the time 
based on an open office environment and some of the functions 
that are within it, including the crisis management center 
which is opposite the cafeteria on the first floor of the East 
Building, including the SCIF facilities that are in the 
building. And----
    Ms. Norton. I know exactly how this was built. It took me 
10 years to get the darn building up. Frankly, I don't like the 
building very much. But I don't like the architecture in my 
hometown very much, and I am a third generation Washingtonian. 
If I had to start, I would blow up the place, give it to Mr. 
Dowd and say, let's start all over again. But these buildings 
are built within the security constraints and particularly 
within the budget constraints. So we are going to be building 
more buildings like that.
    Are you testifying that the only way to do business in an 
open office environment is to pull people off their work every 
time somebody comes down and wants to use the john in the 
building?
    Mr. Porcari. No, I am testifying that that is why it was 
set up that way, with an escort required because of the open 
office environment function.
    Ms. Norton. Well, is it still set up that way?
    Mr. Porcari. It is still set up that way.
    Ms. Norton. You don't have to justify what happened. I 
don't justify what my predecessor did, nor do I throw him under 
the bus. That was then. I am trying not to look backwards. I am 
trying to be prospective. Now, if you want to take that burden 
on, Mr. Porcari, you take it on. I understand what happened in 
the past. I am trying to see if we can make things better now.
    Mr. Porcari. Madam Chairman, about 110 days ago when I was 
in a different role I had a very different perspective of this, 
including what these security procedures mean for mixed use 
transit oriented development, the need to mix both governmental 
functions and other functions like the Reagan Building does 
with the food court and the other public portions of it. I 
would, again, go back to the balanced part of it. I am not 
going to tell you today that we have that balance perspective 
because I am not sure that that is true. And it certainly 
changes over time.
    Ms. Norton. Mr. Porcari, and of course I am not asking 
anybody that. I started this question off I think the right 
way. I asked you were you willing to look at the current 
procedures, not whether or not you had it right. It wasn't 
yours in the first place. It wasn't even the people at DOT in 
the first place. They got it out of the guidance and, you know, 
Mr. Schenkel doesn't know who in the hell that guidance came 
from, for that matter.
    Mr. Porcari. Working with FPS, GSA and others, we are very 
happy to look at those procedures. One of the points I was 
trying to make is that this, none of this is static. I don't 
think anyone believes that a process that you set up at a point 
in time would be the most valid one forever.
    Ms. Norton. Forever is a long time.
    Mr. Porcari. Absolutely.
    Ms. Norton. And you will find that this Committee is only 
looking for what human beings can do in the short term. That is 
why I ask for a review and why I get impatient if people are 
not willing to go through the same head process I am going 
through. I don't know what you should do. I also believe that 
building by building is very different. I have given you 
examples of practices that you have not attempted to justify, 
and I think that is appropriate. I am only asking since you are 
a new regime, if you will forgive me, if you would be willing 
to look at things like whether or not a taxpayer, finding 
herself with her kid on M Street, which is still being fleshed 
out, could enter the building to use the facilities and whether 
or not you might think through a way to do that, whether or 
not, in one of the few eating places on the whole of M Street, 
it might be, it might be possible to open that cafeteria to 
people who will not find restaurants yet on M Street, but will 
find a building that costs them billions of dollars to build. I 
am asking you if you are willing to do that. And all I need is 
a straight answer on that.
    Mr. Porcari. The answer is yes. And I have----
    Ms. Norton. That is all I need, sir. And I ask you within 
30 days to give this Committee not what the answer is, but what 
your procedure will be for looking at the examples I have given 
you and others that your security people will tell you, the 
example from Ms. McCann. I need to know what training you 
intend to do to the guards so that they are consistent. I need 
to know what the training is now that is already written 
someplace. And I need to know how you intend to consult in 
order to revise, if necessary, current procedures. Let me just 
warn people. Don't make--I am outraged at what has happened, 
but I am not your adversary unless you want me to be one. And I 
know how to do that. And I certainly don't expect Mr. Porcari 
says, you know, you expect things to change over time. Mr. 
Porcari, 8 years after 9/11 we are still using many of the 
procedures that we used on day one on 9/11.
    That is from whence cometh my frustration. If you had sat 
where I sat and saw the streets closed up, and it took me 
months to get the streets opened up, largely because people 
didn't know what to do. And I don't know what to do. If you 
live in a continental country, surrounded by water on each 
side, you have no reason to know what to do until you were hit 
on your own soil.
    So we don't have to be apologetic for that. We just have to 
do, and here I go to Mr. Dowd. The NCPC has been very forward 
looking and thinking, maybe because it didn't have to do the 
security. But that is why we need them. But NCPC has been 
important to us because they look at best practices. We believe 
we are not asking the Federal Government to do what Europe 
hasn't learned to do. We are very fortunate. We haven't been 
struck. When we are struck we are struck very mightily. But if 
you go to the capitals of Europe, you want to see struck, go to 
the European countries and you will see spectacular, 
spectacular threats, risks and actual strikes.
    I am going to ask Mr. Dowd, because one of the things this 
Committee is going to do is to try to better incorporate your 
work as administrative agency into the work of our agencies. 
Are you aware of best practices for building security in major, 
I don't know, European capitals that work any better than what 
appears to be ad hoc approaches here?
    Mr. Dowd. I can share some of the information, Madam 
Chairman, that we have. We held a workshop last July and we 
invited some other countries. Actually England came and spoke 
with us. And one of the things that they do there is it is more 
of a layered approach to security. They pointed out that in our 
country we have a lot of assets and we invest heavily in trying 
to protect them all. And they felt that we were rich and we are 
able to make those larger investments. But they struggle more 
with how do they do more with less to protect the assets they 
have. One of the approaches that they identified was in London, 
their ring of steel, which is a circumferential border around 
downtown London where they check license plates and have 
license plate recognition and sort of meter the traffic in. And 
they can identify if vehicles of threat are approaching the 
city.
    Now, that is not the only way to address physical security. 
I guess--let me back up. Our approach was really just on 
physical security, so I respect there are many other aspects of 
security that each individual agency protects. But as you know, 
our commission's purview is on the physical aspects. But we did 
learn that there are other approaches to doing that. And like I 
said, in London they looked at a layered approach where they 
tried to manage security for the entire area and then for their 
most critical assets, which they prioritized, provide 
additional physical security at that site.
    We are hopeful that we can learn from some of those 
experiences as we introduce security here in the monumental 
core. Domestically we have a similar approach in New York City, 
the Lower Manhattan Security Initiative, where they have 
limited access points to Lower Manhattan and approaches like 
that work. It will be a little bit more of a struggle here, but 
we can clearly learn from those lessons.
    Ms. Norton. Very limited approaches anywhere in downtown 
Washington, sir. The whole city is limited. I ask because we 
always have to tailor what we learn elsewhere, but those places 
at least have the experience of being far closer to places 
where the risks exist. And I don't expect that you will have 
any particular model that fits perfectly.
    Let me ask, I guess, Mr. Goldstein, Mr. Peck, Mr. Schenkel, 
about the fee for service approach to Federal Protective 
Service because we realize that funds have been at the core of 
many of the FPS problems. That is one reason it would appear 
that they decided to get out of the protection business 
altogether and just inspect things, don't do proactive patrols, 
which if you want to prevent terrorism I thought was one of the 
standard ways to do it. So we are not laying all of this at 
your feet. We ourselves, for example, Mr. Schenkel, had to 
request a minimum number of FPS officers. By the way, is that 
minimum number, Mr. Goldstein or Mr. Schenkel, still enforced?
    Mr. Schenkel. Yes, ma'am, it is.
    Ms. Norton. But here you needed the authorizing and 
appropriation Committee, because the agency was being literally 
drained of personnel. So again, I stress, I am not laying this 
at the feet of the people at the table, but unless we find out 
what the facts are, we won't be able to be of any help.
    Now, the fee for service based financing, I take it, does 
not take into account things like square footage, like Mr. 
Porcari has a very large facility now. Does it? How does fee 
for service work? How do you even decide what service you ought 
to have if you have got agencies that contrast in size the way 
our agencies do?
    Mr. Schenkel. Madam Chairman, we are not fee for service, 
but we are fee funded. And it is basically----
    Ms. Norton. So what is the difference?
    Mr. Schenkel. You get the same service, the formulation put 
together is actually based on some of the facilities services 
that we provide. The square footage is just a basic security 
fee which is the presumption that you would receive some basic 
functions from the FPS.
    Ms. Norton. Well, between the three of you, you have got to 
make me understand how do we decide how many FPS agencies Mr. 
Porcari ought to have and HHS ought to have? If it is not fee 
for service, if it is something else, as Mr. Schenkel says, it 
is fee, if it is not square footage, then please make me 
understand what it is that----
    Mr. Goldstein. Madam Chairman, it is at $0.66 per square 
foot, which is charged to all the tenants in the Federal 
buildings that FPS protects.
    Ms. Norton. So it is square footage.
    Mr. Goldstein. Yes, ma'am.
    Ms. Norton. So is that a rational basis then for doing it? 
Is it based on size then? The more square footage? The more 
what?
    Mr. Goldstein. Well, regardless of, one of the things we 
have been concerned about, and we wrote in our last report to 
you last July we have been very concerned about this approach 
because regardless of whether you are located in a level I 
facility or whether you are located in a level IV facility, 
whether you have FPS officers who visit you and are with you 
virtually all the time, or whether you don't see them for 6 
months, you have to pay the same amount.
    Ms. Norton. That would be based on what? Whether they visit 
you often or not would be based on what today?
    Mr. Goldstein. Whether they are anywhere near you. In other 
words, if you are a level I facility in Iowa, or you are a 
level IV facility in Manhattan, you are still paying $0.66 per 
square foot. If you are in Manhattan you are likely to see FPS 
officers pretty frequently because most of them are urban 
based. There is more in urban areas because FPS has decided 
based on its risk management approach that that is where most 
of its officers would be. But you are still going to pay the 
same amount of money.
    Ms. Norton. Let me understand. Because, you know, per 
square foot makes some sense. But are you saying that it is not 
risk based per square foot?
    Mr. Goldstein. That is correct. One of the problems we have 
is there is no equity in the situation. Everyone is paying the 
same amount.
    Ms. Norton. So I could be where terrorists were given to 
believe, based on the intelligence before me as a Member of the 
Homeland Security Committee, I could be in some place in a 
rural area which maybe because it is in a rural area has a 
particularly large Federal facility, but that facility houses 
agencies that have never been considered targets for terrorists 
but because it is a large facility for efficiency purposes, it 
could receive more FPS coverage than say a smaller square foot 
facility that is more highly targeted?
    Mr. Goldstein. That is correct. In our report last year to 
you, ma'am, we recommended that FPS improve the use of the fee 
system by developing a method to accurately account for the 
cost of providing for security services and to evaluate whether 
the current use of the system made sense or whether they should 
develop an alternative funding mechanism. But those 
recommendations, along with other recommendations in that 
report, have not been closed yet. They have not reported back 
yet.
    Ms. Norton. Well, you state at page 2 of your testimony, 
Mr. Goldstein, that FPS does not use a risk management 
approach. Your words, a risk management approach that links 
threats and vulnerabilities to resource requirements.
    What approach do they use?
    Mr. Goldstein. That is correct. They mainly use the 
building security assessment process to determine what the 
risks are in their view on a building-by-building approach. But 
as you know, we have reported about problems about the building 
security assessment program itself over, in our report.
    Ms. Norton. So what is the problem with the building 
assessment if they are looking at it building by building?
    Mr. Goldstein. Well, there are specific problems with how 
they are doing the assessments. And then more broadly there are 
problems with doing it on a building-by-building approach as 
opposed to assessing risk across the portfolio.
    Ms. Norton. So if they assess risks across the board, 
wouldn't they also have to do some building-by-building 
assessments?
    Mr. Goldstein. You would certainly have to do some building 
by building assessment, but the tools they have do not let them 
compare the risks across the buildings today.
    Ms. Norton. Would you consider the Department of 
Transportation a high risk facility for terrorist attack?
    Mr. Goldstein. I have not looked specifically at that. I 
couldn't answer the question, ma'am. I mean, obviously their 
headquarters building. I presume is a level IV because it is a 
headquarters building.
    Ms. Norton. So every level IV facility is equally a target 
for terrorist attacks?
    Mr. Goldstein. Well, that is, I think, part of the issue 
that I am trying to raise. It is equally categorized in terms 
of risk, but every level IV building in the Federal portfolio 
may not have the same level of risk associated with it.
    Ms. Norton. Are the buildings, in fact, characterized in 
terms of actual risk based on function?
    Mr. Goldstein. Not really. It is mainly in terms of size of 
building, the numbers of employees in those buildings, 
generally speaking, the kinds of agencies inhabiting those 
building. It is not specifically based on risk.
    Ms. Norton. Is sounds like you need a new matrix or grid in 
the first place to look at buildings so that agencies aren't--
--
    Mr. Goldstein. The new security standards that have been 
promulgated but are not in effect yet go further than the old 
Department of Justice standards.
    Ms. Norton. Promulgated by whom?
    Mr. Goldstein. By the Interagency Security Committee. They 
go further than the old Department of Justice standards in 
trying to establish some risk parameters, but it is still 
questionable as to whether they go far enough and it may be 
something we should look at at some point.
    Ms. Norton. Mr. Peck.
    Mr. Peck. Yes, ma'am. I don't want one of Mr. Dowd's points 
to get lost because it has a relationship to the whole----
    Ms. Norton. First of all, do you know anything about what 
Mr. Goldstein is talking about? There are some promulgated but 
not issued new----
    Mr. Peck. Yes, the ISC has developed new physical security 
criteria.
    Ms. Norton. Do you have anything to do with those?
    Mr. Peck. GSA has been on the committee that has been 
working on them and I----
    Ms. Norton. Should they be promulgated as they are right 
now?
    Mr. Peck. They are still being worked out. There are some 
questions I gather about whether we have--within the 
administration about whether we have taken enough of a look at 
how much the criteria may cost in compared to how much more of 
a threat countermeasure they will provide. But they are on the 
way. I will say that I am told and I have to say, I haven't 
read them. I am told that they are more risk based than what we 
had seen before.
    But you know, what Mr. Goldstein is getting to, and this is 
sort of the big question here is how do you measure risks? What 
are the risks by agency?
    Let me make one point about the fee if I may. One of the 
problems with, and to defend FPS, I think what happened was we 
used to have a security fee tacked on to the rent that GSA 
charges. When FPS was taken out of GSA and put in Homeland 
Security, I think everyone said, well, we will fund them 
through a separate little rent piece here. And I think it 
probably wouldn't be a bad idea to take a look at whether that 
makes sense because some of the inequity that we are talking 
about here will result. You get charged the same amount no 
matter how much stuff or people we are putting in the building 
for security.
    But the other thing that that does is it discourages us to 
the extent this is a building by building security fee based 
system it discourages us from taking a look at the kinds of 
suggestions Mr. Dowd makes that you could create a security 
zone and not based on a building and you provide some of the 
building security by saying we are going to screen people 
someplace else.
    So let me make two points about that. You see that system 
here on Capitol Hill. At the foot of Capitol Hill and elsewhere 
around, you will see Capitol police officers making sure that 
buses and big trucks don't get into this complex at all. That 
means that certain levels of security don't have to be borne by 
the building. And the same thing happens at the Ronald Reagan 
Building. Because we can screen trucks somewhere else we don't 
have to worry quite as much about getting them into the loading 
dock.
    Ms. Norton. Do you use that for other Federal buildings as 
well?
    Mr. Peck. Pardon?
    Ms. Norton. Do you use what you are doing at the Ronald 
Reagan Building for trucks or other Federal buildings?
    Mr. Peck. I am saying the trucks for the Ronald Reagan 
Building are screened.
    Ms. Norton. No, for other Federal buildings.
    Mr. Peck. Oh, in this----
    Ms. Norton. Yeah, for the Department of Transportation 
trucks, for EPA trucks.
    Mr. Peck. Actually, I think just the Capitol, the White 
House. I don't know if State Department.
    Ms. Norton. Mr. Porcari, do you have to do the trucks on 
your own?
    Mr. Porcari. Yes, we do. Our loading dock facility has, for 
example, x-ray facilities for packages coming in. It has 
bollards.
    Ms. Norton. See what I mean. You know what a waste that is. 
Whereas the Ronald Reagan building has, I hate to say this, a 
higher level security in my view. They figured it out. 20 
minutes, if you are not there in 20 minutes bye bye, you don't 
get in. But there is a central facility for doing it. Mr. 
Porcari, and probably we did this, or at least the facility, it 
was possible to do it when we created the building. So if there 
is no central facility then they are not going to be caught 
with trucks coming in that had not gone through the right 
security. So I would bet you that every agency is somehow 
trying to screen these trucks. This goes to what Mr. Dowd said 
about some central place.
    Mr. Peck. If what you are saying is we have not shared best 
practices across our buildings in Washington, I think you are 
absolutely right.
    Ms. Norton. Well, what does the ISC do if they don't do 
that?
    Mr. Peck. Well, you know, I don't know enough to say. I 
think they have been looking at kind of high level security 
criteria and the more fine grained security practices that are 
really important are--have somewhat been left to be customized 
agency by agency and building by building.
    Mr. Goldstein. For most of its history, Madam Chairman, the 
ISC has been an organization of really a one part time person. 
They have not really provided staff to that committee, so it 
has not always moved as quickly as might be hoped.
    Ms. Norton. Well, that is important to know. Where does 
that staff come from?
    Mr. Goldstein. It comes from the Department of Homeland 
Security.
    Ms. Norton. Mr. Schenkel, on page 5 I noted in your 
testimony you say you took steps immediately after the GAO 
report was issued in early July. This has to do with the bomb 
making materials, et cetera. How do you track implementation 
and progress of the steps you have taken? Understand that GAO 
didn't go to one or two buildings. They went and not just in 
one city, and that is why it was disturbing.
    Mr. Schenkel. Yes, ma'am. It was very disconcerting and as 
soon as Mr. Goldstein and his team came and briefed us we took 
immediate steps. We formed a tiger team and started doing a gap 
analysis in regard to what things had to be covered.
    Ms. Norton. Well, let's start with the magnetometer. It 
looked like even the training at the magnetometer basis, for 
example, liquids coming into Federal buildings, I don't know if 
the magnetometers can capture that or what you can do about 
that.
    Mr. Schenkel. Well, we did do a blanket purchase agreement 
on new x-ray machines that will differentiate between water and 
then more viscous liquids.
    Ms. Norton. Very important.
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. Between water and other liquids.
    Mr. Schenkel. Yes, ma'am. Yes, ma'am. In addition----
    Ms. Norton. What have you done to assure that the FPS 
guards and contract guards are properly trained since part of 
this had to do with people and their training at the 
magnetometer?
    Mr. Schenkel. Yes, ma'am. There are several things that we 
have done. We initially issued an immediate training bulletin 
that provided information to each individual security guard as 
to----
    Ms. Norton. What good is that? Don't they need some 
retraining?
    Mr. Schenkel. Yes, ma'am. I am getting to that. Yes, ma'am. 
In addition to that, part of the tiger team in addition to the 
actual bulletin we also produced a training video that every 
one of the single guards had to go through. In addition to that 
we have also retrained cadres of inspectors that are in process 
right now of actually doing hands-on training to all of our 
contract security guards. Also, when we conduct our operation 
shields or our guard post inspections. If we find discrepancies 
we make remedial training an urgent mission right on the spot. 
We don't wait or report it later on. We take immediate action 
and retrain the guards.
    As part of the tiger team's review we have determined that 
yes, we do need to be much more involved and more actively 
involved in the training of the contract security guards. We 
are in the process now of actually determining the appropriate 
numbers of inspectors and trainers that would be necessary to 
enact that.
    Ms. Norton. Well, some of this is quite reassuring. And I 
thank you, Mr. Schenkel. I know, not only on behalf of the 
Committee, but on behalf of people in these unknown buildings. 
For security reasons we of course will not name the buildings. 
And we know you will take these reports seriously.
    Let me ask you, Mr. Schenkel, and for that matter Mr. Peck, 
Mr. Goldstein, I experienced the shock of 9/11. And believe me, 
we went through trial and error. I am also on the Aviation 
Subcommittee, so I think I have just seen it all in terms of us 
stabbing at what we can do, trying it out, not often enough, 
pulling it back, seeing wonderful cooperation on both sides of 
the aisle, trying to keep the country open.
    One thing that we did after 9/11 was to federalize the 
security at airports. Before that it was much like what I hear 
the Federal buildings are doing, you know everybody try to do 
it the best you can. There is some overall guidance. You can 
believe the airports had some overall guidance. But in our 
judgment, security was important enough to at least have some 
uniformity. And that uniformity goes across the board. It fits 
Washington, D.C. And it fits far smaller cities, medium size 
cities. Yes, it is tailored and particularized, but this is a 
model for the United States of America. And all I can say is we 
haven't been struck again and it is had a deterrent effect we 
think at least.
    Why can't FPS set up a model that is similar to the TSA 
model which standardizes certain elements of security even 
given the vast differences between a New York, a Washington, 
D.C., for that matter, and I don't know, a Nashville, Tennessee 
and a Podunk, call its name out. If we can do that across this 
vast Nation, why isn't there a standard model and then we work 
up from there or down from there?
    Mr. Schenkel. Ma'am, that has been the effort of FPS over 
the last several years.
    Ms. Norton. But you heard testimony here that shows that 
that is not the case.
    Mr. Schenkel. Yes, ma'am.
    Ms. Norton. There is the Ronald Reagan Building and then 
there is the DOT.
    Mr. Schenkel. I think the Ronald Reagan Building probably 
represents the optimum of what we are all trying to get. Mr. 
Peck and I have already entered in discussions since just his 
recent arrival and prior to that his predecessors and his 
security office and FPS have been working on minimal security 
standards. Inconsistency is one of the most challenging things 
when it comes to security. Inconsistency.
    Ms. Norton. You have been working on minimal----
    Mr. Schenkel. Security standards.
    Ms. Norton. Since when and when will they be out?
    Mr. Schenkel. We have no idea when they will be out because 
we don't know that we can enact them. Currently there are not 
the authorities.
    Ms. Norton. You have no idea when they will be out because, 
say that again?
    Mr. Schenkel. I have no idea when they will be out because 
we don't have the authorities to actually----
    Ms. Norton. So you are doing what you don't have the 
authority to do. Who has the authority?
    Mr. Schenkel. At some point the ISC would have the 
authority to publish that. But what we are trying to determine 
is a minimal standard that would be consistent----
    Ms. Norton. I am not asking you to tell me when Secretary 
Napolitano will sign off on something. I am asking you when you 
will be ready. I am asking you within your power. You can't 
speak to maybe ICE. I will speak to ICE especially on my 
Homeland Security Committee. You have got the agency that is 
under scrutiny here. So if you have been working, I need to 
know when you think you will be ready with a minimal security 
model that we can begin to work from in the Congress.
    Mr. Schenkel. Ma'am, I really couldn't answer that because 
there is a couple of other things----
    Ms. Norton. Well, let me tell you what, Mr. Schenkel. You 
are going to within 30 days provide this Committee with 
information on your goal for getting a plan, doesn't have to 
get done, getting a plan to ICE so that we can then hold those 
accountable beyond you. You alone are accountable because--not 
ICE, but you have the authority to look at the agency under 
your control. I am not asking you when you are going to get it 
done. I am asking you, I am telling you this much. If it is 
open ended it is going to get done whenever you get ready. I am 
also telling you that this is a matter of security. And 
therefore, I need to know when you intend to have a plan. Do 
you intend to have a plan within 5 years, do you intend to have 
a plan within 5 months? Do you intend to have a plan within 5 
weeks? I only know how to work in a system by goals and 
timetables. 30 days. That is all you have to get to us.
    I want to ask Mr. Moses a question. You have within your 
jurisdiction the quintessential model, you have just heard 
others say that they would like to see that model looked at 
more closely for possible application elsewhere. You have also 
heard that the DOT is operated under a model which puts 
everybody virtually, except its employees, off limits. Yet the 
Ronald Reagan welcomes a million people. And you are 
responsible for security in this region.
    Would you favor a model that is more standardized based on 
what apparently has been worked out at the Ronald Reagan 
Building?
    Mr. Moses. Chairwoman, inconsistent with the Director----
    Ms. Norton. I understand by the way your boss is sitting 
there. I am asking you, since you are the one that has been 
closest to the model, you don't know whether Mr. Schenkel is 
going to be able to use it or not. But he is going to look to 
you to say is this something you think has utility outside of 
this one building in the United States or not?
    Mr. Moses. Yes, ma'am. As the previous witness mentioned on 
the earlier panel, that requires close coordination and 
certainly, within the National Capital Region of the Federal 
Protective Service we are willing to work with the Department 
of Transportation to ensure, as you mentioned with the Deputy 
Secretary, that we are willing to consult with them to ensure 
that we can have the same application that we have in the 
Ronald Reagan Building.
    Ms. Norton. Now you know there may be flaws in this model. 
The reason I keep holding it up is normally when we find models 
for the Federal sector they are outside of the Federal sector. 
We were delighted that the Federal sector had created, without 
any model of its own, what appeared to be a security within 
security, you know, we usually ask for just security one by 
one. And here we looked and found the most complicated security 
had been worked out fairly well, it seemed to us, in this one 
building. And we thought, wow, wouldn't we want to grab on that 
model. And we even thought that some of our colleagues in the 
private sector with whom we work so closely would be interested 
in the model. That is why I want to know more about the model 
and I would like the NCPC to look at the model in that light 
whereby you almost look like you have got a test case, like 
somebody said, and they didn't, let's test it to see whether or 
not within the same facility we can look at one facility as a 
control group, almost, and another one and let's see how it 
comes out. Without meaning to do so, it looks like you have 
done it. Mr. Dowd?
    Mr. Dowd. Yes, Madam Chairman. What I think this points out 
from NCPC's perspective is the important of balancing security 
with other values. And what I think the Ronald Reagan Building 
points out to us is that if we create a value of access to that 
building then we can work with the security and make sure we 
accomplish both. Just like we do on some of the physical 
security projects. Around the Washington Monument, for example, 
the initial proposals were for a ring of bollards around the 
monument. And our commission said no, that is not acceptable. 
We value this space too much to let that security intrude upon 
it. And so we worked hard and ended up with a security solution 
that is just as secure, but yet we retain those other values 
that are important to us.
    So I think that is kind of the common thread that I see in 
these challenges, that we have to make sure we respect those 
other values that are important to us.
    Ms. Norton. Well, what you have said is very important. I 
would phrase it this way. I believe that everybody working on 
security has done what he has supposed to deal with security. 
They have been given only one mission. What you call a value, I 
call a mission. Mr. Moses has two missions. Mr. Moses, I know 
how to keep everything secure. Just shut all y'all out of it. 
So keeping buildings secure is not rocket science. The great 
American innovative spirit could come out in glorious ways if, 
in fact, agencies regarded their mission as two-sided; that 
security without openness is unacceptable, openness without 
security is unacceptable. Here you don't see me quantifying the 
two because I don't know how to do that. All I know is that 
initially in the Capitol, this was a terrible place afterwards, 
and even though sometimes there are long lines, I don't 
complain a lot about the Capitol. We are always looking at it. 
We have complaints about the Capitol Visitor Center, based on 
experience.
    Mr. Porcari's point that, you know, it is not static. My 
only correction is that it has been, for the most part. We 
haven't heard of changes that have occurred. We have heard of 
some regulations that may make changes occur. We didn't know 
when they were going to be issued. It hasn't been a continuing 
review, because frankly it hasn't been anybody's business. 
There has been this large group, the ISC, which means that all 
of them are responsible so nobody's responsible. We are going 
to see to it that somebody is responsible and accountable, and 
that the mission is a two-sided mission.
    Before I let you go, there has been a big concern about 
something that otherwise I regard as a very important part of 
what security in every building should be. After we get some 
kind matrix about how to keep a building secure, then go to the 
next set about how to keep this building in particular secure, 
we would not begin to have put together what was needed until 
we had done the vital consultation with those who go to work 
every day in the building, and who, in some sense, knows it 
best. Well, our experience has been that they not only know it, 
at least from the point of view of going to work every day, 
they do it. These so called building security committees which 
have people from the agencies to sit on building security, they 
may be from, you know, the IT department, dealing with matters 
that have nothing to do with security. They may be from, 
somebody from the Secretary's office who is special assistant 
whose job really is to keep track of Members of Congress. But 
nevertheless, they sit together and we have been astounded at 
their influence.
    What should be the role of the building security 
committees? Mr. Peck?
    Mr. Peck. As I said before, I think the building security 
committees have been asked to perform a function that they 
should not have been asked to perform. They have been put in a 
position, whether overtly or it just grew that way, of making 
the decisions about security practices in a lot of buildings. 
And so, I mean, I have seen, I saw it before and this may have 
changed. But there were times when the Federal Protective 
Service and GSA together would say there is really a best 
practice that would allow you to have all the security you need 
in your building by doing this set of practices. And sometimes 
building security committees say but we were in another 
building and we saw them do something else so we would rather 
do it. And sometimes the other building they saw was a building 
with a different mission, a different level of security, a 
different level of needs. And so I believe that some of what 
you are talking about is----
    Ms. Norton. And GSA couldn't say, well, had no power to do 
anything about these civilians telling you that they want the 
same thing they have across the street.
    Mr. Peck. Correct. And to be frank, the only way in which 
we have ever been able to say, we can't or won't do that is to 
say we don't have the resources to do it, and you don't have 
the resources to do it.
    Ms. Norton. Not only do we not have the resources to do it, 
but we work closely in conjunction with the Appropriations 
Committee. Nobody is going to have the resources to do it.
    Mr. Peck. Correct.
    Ms. Norton. What we are doing here is the beginning of work 
that the Congress is going to do. If the agencies want to 
straighten it out themselves, that is the best way to do it. 
But we believe that the agencies are spending money because 
they can. After all, it is within their budget. They might 
spend it on something else. But we will be working with the 
Appropriation Committee as well. We would rather see you spend 
it on your mission. We believe that DOT does trucks because no 
central part of the Federal Government helped DOT to find a 
better way to do it and, therefore, they had no alternative.
    So we are looking to work with all of you, not DOT nearly 
as much as with Mr. Peck. Mr. Peck, Mr. Goldstein, Mr. Dowd, 
Mr. Schenkel and Mr. Moses. Not so much the individual 
agencies, because we know that they have been left on their own 
to guard their own security and to take advice from their own 
employees. I don't believe--I am a small "d" democrat--believe 
in bottom up democracy. But I also am a Member of the Homeland 
Security Committee, and believe that at some point security 
trumps everything. After 9/11, security trumped everything as 
far as I was concerned until we figured out some way to make 
sure that we at least had a handle on not letting them come 
right back at us.
    You will not see me among the Members of Congress advising 
the President that we ought to get out of Afghanistan right 
away. You will not see me saying that. I am sitting in the 
region that was struck. I hope none of my folks in New York are 
saying just walk away, Mr. President. You will see me telling 
him that there are some things to do besides start another 
Iraq, but you won't see me unmindful of the security concerns 
that each of you have raised. It would be only an authoritarian 
regime that would say once you have looked at what the agency 
wants, at its professional level, once you have looked at the 
template, go to it. That is not this country and that is not 
this Federal Government. It seems to me that the input of 
Federal employees is critical to the success of the homeland 
security mission.
    Federal employees will be just like those who find today 
that there are new security alerts and so they have gone, 
television has gone out into the streets and saying, well, you 
know, what do you think that now that it is a little more 
inconvenient and it is interesting, almost across the board 
people are saying, look, we understand that they are trying 
after these arrests in New York to keep us all safe. After a 
while, people lose patience and they begin saying, well, why 
are they still doing this? Why are they still slowing up?
    The building security people who talk to employees will be 
able to say to you what you would otherwise never know, that 
they have, in fact, seen people get through security with the 
guards talking to somebody instead of looking, or they don't 
know how somebody who appeared to need help and to be homeless 
got in the same elevator with them. How are you going to know 
unless the building security committee is alert? And how are 
you going to know things about the building? You can only know 
if you sit in that office and see ways that could be shored up 
without some of the ways that are being used now.
    So I don't want to be heard to say that we want to 
professionalize everything any more than I am saying that what 
we have pointed out as issues for us can be laid at the table 
of anybody except the Congress of the United States. It is our 
oversight responsibility to bring these out and then to work 
with you. We bring them out. We are concerned and frustrated 
with them somehow but we do not stop with well, we have shown 
the world that this doesn't work. We use the hearing as a 
template to task staff to then go and help us help the agency 
find the way out that may have come forward from the hearings.
    I am going to take this opportunity to thank you for 
spending so much time with us, understanding that you are 
educating us, helping us figure out what all of us are still 
trying to understand, and to thank you very much for your 
written testimony and for your willingness to sit with us as we 
ask you questions and learn from you and the experiences you 
have.
    This hearing is adjourned.
    [Whereupon, at 5:15 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
</pre></body></html>
